<html>
<title> - STATE DEPARTMENT REAUTHORIZATION: ENSURING EFFECTIVE U.S. DIPLOMACY WITHIN A RESPONSIBLE BUDGET</title>
<body><pre>[Senate Hearing 114-293]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-293

  STATE DEPARTMENT REAUTHORIZATION: ENSURING EFFECTIVE U.S. DIPLOMACY 
                      WITHIN A RESPONSIBLE BUDGET

=======================================================================

                                HEARING

                               BEFORE THE


                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 22, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
                         U.S. GOVERNMENT PUBLISHING OFFICE
20-569PDF                      WASHINGTON : 2016                         
      
      
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="88eff8e7c8ebfdfbfce0ede4f8a6ebe7e5a6">[email&#160;protected]</a>  
     
      
      
      
  
      
      


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts
                  Todd Womack, Staff Director        
           Jodi B. Herman, Democratic Staff Director        


               Chris Ford, Majority Chief Counsel        
            Margaret Taylor, Minority Chief Counsel        
                  John E. Dutton, Chief Clerk        

                              (ii)        

  
                             C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Bob Corker, U.S. Senator From Tennessee.....................     1
Hon. Benjamin L. Cardin, U.S. Senator From Maryland..............     2
Hon. Heather Higginbottom, Deputy Secretary of State for 
  Management and Resources, U.S. Department of State, Washington, 
  DC.............................................................     3
    Prepared statement...........................................     5

              Additional Material Submitted for the Record

Responses of Deputy Secretary Heather Higginbottom to questions 
  submitted for the record by Senator Bob Corker.................    35
Responses of Deputy Secretary Heather Higginbottom to questions 
  submitted for the record by Senator Benjamin L. Cardin.........    41
Responses of Deputy Secretary Heather Higginbottom to questions 
  submitted for the record by Senator Jeff Flake.................    53
Responses of Deputy Secretary Heather Higginbottom to questions 
  submitted for the record by Senator David Purdue...............    55

                                 (iii)

  

 
  STATE DEPARTMENT REAUTHORIZATION: ENSURING EFFECTIVE U.S. DIPLOMACY 
                      WITHIN A RESPONSIBLE BUDGET

                              ----------                              


                       WEDNESDAY, APRIL 22, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senator Corker, Flake, Gardner, Perdue, Cardin, 
Menendez, Shaheen, Coons, Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. We will bring the meeting to order.
    David, thanks for stepping in for me for a second. I was 
rushing over from an off-campus meeting, and I want to welcome 
those here. I know we will have others joining us.
    Heather, we thank you for being here.
    So thank you, Deputy Secretary Higginbottom, for your 
continued service to our country and for your testimony today.
    State Department operations have not been authorized since 
2003, which means the Department's authorities are old and its 
budget has not been thoroughly reviewed in 13 years. One of our 
top priorities in this committee is to restore regular 
committee consideration of a State Department authorization 
bill, reviving a process that will help the Department become 
more efficient and effective within a sustainable budget.
    The purpose of this hearing is to discuss some of the 
opportunities involved in reauthorizing State Department 
operations for the first time in over a decade. I think this 
can be a collaborative process. Certainly, it has begun that 
way. And I thank you for the productive discussions the 
Department has been having with our staff.
    As we build toward a bill that I hope will achieve 
bipartisan consensus, we have been studying the State 
Department's budget, considering its request for new 
authorities, and examining ways to make existing programs more 
effective and efficient. We found many great stories about the 
work the Department is doing around the world to advance the 
United States' interests.
    We have also found many instances where we will be able to 
work constructively together to enhance ongoing Department 
efforts.
    The State Department's fiscal year 2016 budget request for 
operations is 11 percent higher than last year, which brings 
into question some of the issues we are dealing with relative 
to fiscal discipline and the reality of budget caps.
    A significant part of that inflated request is due to the 
increasing financial burden of U.N. peacekeeping. The United 
States contributes more than any other permanent members of the 
U.N. Security Council, all of them combined. And our share is 
still going up. Coupled with an increase in peacekeeping 
missions around the world, this will only place added pressure 
on other priorities.
    But most of our focus has been on where we might achieve 
efficiencies in the nuts and bolts operations of the State 
Department. One of the potential inefficiencies we found is a 
proliferation of special envoys and representatives. This 
administration seems to keep increasing its reliance on these 
``specials,'' which duplicates the effort within the Bureau, 
dilutes the contribution of State's career staff, and 
circumvents Senate confirmation and oversight of senior 
leaders.
    Foreign Service special pay and allowances should also be 
reviewed.
    Rightsizing represents another opportunity for more 
efficient diplomacy.
    I hope you will address these issues in your testimony, as 
well as the following: what you hope to achieve through the 
second Quadrennial Diplomacy and Development Review; what you 
are doing to foster more rigorous program evaluation across the 
Department; and whether you think economic diplomacy gets the 
emphasis that it deserves.
    Again, thank you for being here. I look forward to our 
distinguished ranking member's comments and, certainly, your 
testimony.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Mr. Chairman, first, thank you for 
convening this hearing. I agree with you. One of the most 
fundamental responsibilities of this committee is to give 
guidance on our foreign policy to our diplomats and to our 
development professionals. And when we do not pass an 
authorization bill, we are not carrying that out the way we 
should. So I thank you very much for convening this hearing as 
we look at the possibility of reauthorizing the Department of 
State.
    American diplomats and development professionals are the 
best examples of talented people that are on the frontline for 
America. They face serious security and political challenges.
    So we can help. The way Congress can help and demonstrate 
our commitment to their critical missions is to provide our 
diplomats and development agencies with the guidance, 
resources, and authorities they need to protect and extend U.S. 
interests and values around the world.
    So that means we should pass an authorization bill. Give 
them the guidance they need. I believe the Department of State 
has been hamstrung for too long by the lack of authorizing 
legislation.
    In the absence of authorizing legislation, the Department 
of State has been forced to make some of these important 
reforms through administrative action. Administrative action 
can bring about change, but it does not give that long-term 
predictability that is so important. It can change in 4 years 
with the next administration. It at times presents challenges 
for morale. It presents challenges in the relationship with 
Congress. It would be much better if Congress would pass an 
authorization bill.
    So I look forward to evaluating the success of the reforms 
that have been instituted administratively, including the 
results of the first Quadrennial Diplomacy and Development 
Review, and now, as you are starting your second, what your 
goals are in the second review.
    Mr. Chairman, as you point out, there are many other issues 
that are involved here that we really need to take a look at, 
as we look at authorizing legislation, including embassy and 
Diplomatic Security; workforce diversity, an issue that we have 
been concerned about; overseas comparability pay for those who 
serve in our embassies; U.N. reform is an area I know is of 
interest; how the human rights portfolio is being handled under 
the J family of bureaus; the use of special envoys has been an 
issue, there have been a growing number, and that can cause 
some real friction within the Department of State; and how we 
use Foreign Service officers versus civilian service and 
political appointments.
    I think these are all issues of legitimate concern to this 
committee, and I look forward to starting that debate with the 
Deputy Secretary of state.
    The Chairman. Thank you, Senator Cardin.
    I want to also thank Senator Menendez who helped begin this 
process before and, certainly, the role that David Perdue and 
Tim Kaine are playing to make sure that this moves along in an 
orderly way in the subcommittee process.
    But, Deputy Secretary of State for Management and 
Resources, the Honorable Heather Higginbottom, will now 
present. We thank you for being here. We look forward to your 
testimony and the questions that you will answer afterward.

  STATEMENT OF HON. HEATHER HIGGINBOTTOM, DEPUTY SECRETARY OF 
 STATE FOR MANAGEMENT AND RESOURCES, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Higginbottom. Thank you, Chairman Corker, Ranking 
Member Cardin, distinguished members of the committee, thank 
you for the opportunity to testify today regarding the 
Department of State authorization bill.
    As you said, Mr. Chairman, it has been over a decade since 
the Department of State last had an authorization bill and the 
world has grown more complex in the years since.
    From countering Russian pressure in Europe, to placing 
economic diplomacy at the front of our global agenda, to 
combating ISIL alongside our coalition partners, we face myriad 
challenges and opportunities that impact our national security 
and our economic prosperity.
    To effectively meet these challenges, our diplomacy must be 
more agile, more effective, and more modern. In the coming 
weeks, the Department will release the second Quadrennial 
Diplomacy and Development Review, which will define a 
streamlined set of cost-cutting policy goals and the internal 
reforms needed to maintain America's global leadership.
    This is a key step to allowing us to work better, smarter, 
and more safely and efficiently. But we cannot take these steps 
alone. We look to Congress as a partner in this effort.
    A State Department authorization bill would provide key 
authorities so that we can engage on a range of challenges to 
our national security and economic prosperity that are before 
us.
    We have proposed a set of authorities to the committee that 
fall into the following three areas: improving the safety and 
security of U.S. citizens and facilities overseas, making the 
most efficient use of our resources, and securing and retaining 
a talented workforce. I will just highlight a few priorities.
    To enhance security, we are seeking authorities to help our 
Diplomatic Security officers protect soft targets overseas and 
support their ability to investigate and prosecute visa and 
passport fraud cases.
    We have also asked for authority to hire local guards by 
awarding contracts to the best value firms and not just the 
lowest bids, a critical authority for ensuring the best 
possible security profile at our missions overseas.
    We have requested authorities to add flexibility to our 
fee-funded consular functions. Through slight increases in 
certain border crossing fees and adjusted passport and visa 
surcharges, the Department can increase the quality of its 
global consular and passport services and devote additional 
resources to combating all types of visa fraud.
    We have requested authority to pay our peacekeeping dues at 
the assessed rate through the contributions for international 
peacekeeping activities account, which will allow us to better 
shape and reform peacekeeping operations to deliver maximum 
impact.
    Finally, we are seeking key personnel authorities to enable 
the Department to retain a talented workforce. Our top priority 
is to secure full overseas comparability pay to ensure that our 
officers do not face a pay cut when they serve overseas.
    Mr. Chairman, the committee posed specific questions in its 
invitation to me, a few of which I will address now and more, 
of course, in your questions.
    Your letter raised the need for more rigorous program 
evaluation across the Department. I fully agree. Earlier this 
year, I issued a revised evaluation policy that will improve 
how we assess the breadth of programs and initiatives 
undertaken by the Department, and I believe we can and should 
do more to build on these efforts.
    Your letter also asked for an update on United Nations 
reform and financial burden-sharing. We firmly believe that 
emerging countries must pay their fair share of United Nations' 
budgets. We expect to see assessment rates for larger 
developing countries continue to increase as scales are 
revised. We are also working to advance reforms to the scales 
methodology to better reflect changes to the global economy and 
ensure that wealthier developing countries shoulder a fair 
burden.
    And your letter raised the issue of whether economic 
diplomacy receives enough attention at the Department. This is 
a critical issue. The 2015 QDDR will make economic diplomacy a 
key focus, and it will make recommendations to ensure the 
competitiveness of U.S. businesses abroad and job growth back 
home.
    Mr. Chairman, a strong authorization bill will put the 
State Department on the best possible footing as we 
aggressively pursue the security and prosperity of the American 
people.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Ms. Higginbottom follows:]

      Prepared Statement of Deputy Secretary Heather Higginbottom

    Chairman Corker, Ranking Member Cardin, and distinguished members 
of the Senate Foreign Relations Committee, thank you for the 
opportunity to testify today regarding a Department of State 
authorization bill.
    Mr. Chairman, I appreciated the opportunity to meet with you 
earlier this year to discuss the importance of passing an authorization 
bill and the Department's priorities. I also had an excellent 
discussion with Senator Perdue last week and I look forward to working 
with the whole committee on State authorization.
    As he has said to this committee, Secretary Kerry strongly supports 
moving a Department of State authorization bill. As chairman, Secretary 
Kerry wrote a State authorization bill and recognizes that a bill that 
provides a strong foundation for State Department operations that 
reflects key Department and congressional priorities will help ensure 
that U.S. diplomacy is effective and efficient.
    The last Department of State authorization bill was enacted in 2002 
and the world has grown more complex in the years since. From 
countering Russian aggression and coercion in Europe, to placing 
economic diplomacy at the forefront of our global agenda, to combating 
ISIL alongside our coalition partners--we face an intricate global 
tableau of challenges and opportunities that directly impacts both our 
national security and our economic prosperity.
    To effectively meet these challenges, our diplomacy must be more 
agile, more effective, and more modern. We are working hard to position 
ourselves to do just that.
    In the coming weeks, the Department will release the second 
Quadrennial Diplomacy and Development Review (QDDR). The QDDR is an 
important tool that allows us to look strategically--beyond the day-to-
day global challenges--at the emerging issues we are confronting. It 
also allows us to look critically at both State Department and USAID 
operations and ask how we can work better, smarter, safer, and more 
efficiently. The 2015 QDDR will be a focused effort that defines a 
streamlined set of crosscutting policy goals and the internal reforms 
needed to maintain America's global diplomatic leadership.
    We are taking steps across the board to better position ourselves 
to meet the challenges of the 21st century, but we cannot take these 
steps alone. We look to Congress as a partner in this effort.
    A State Department authorization bill would provide key authorities 
so that we can engage as effectively as we can on the multitude of 
global challenges before us. We have proposed to the committee a set of 
authorities that will enhance our ability to better manage our 
resources, facilitate the Department's programs, and protect our 
personnel.
    We have requested authorities within three overarching themes: 
First, we need authorities that will allow us to improve the safety and 
security of U.S. citizens, government employees, and facilities 
overseas; second, we need authorities to make the most efficient use of 
our resources; and, third, we need authorities to strengthen and retain 
a talented work force.
improve the safety and security of u.s. citizens, government employees, 

                        and facilities overseas
    The Department is seeking several important authorities to 
undertake the best protective measures available for our diplomats, 
citizens, and embassies abroad.
    First and foremost, we are requesting authorities to enhance 
security for soft targets overseas, such as school buses, and the 
authority to hire local guards by awarding contracts to the best value 
firms and not just to the lowest bids.
    We are also seeking administrative subpoena authority for the 
Bureau of Diplomatic Security (DS). DS does not currently possess 
administrative subpoena authority, which erodes its ability to 
investigate threats and combat visa and passport fraud. Not only would 
this authority greatly assist DS in investigating and preventing threat 
cases, it would allow DS to conduct much more efficient investigations 
of the nearly 3,000 cases of passport and visa fraud it receives 
annually.
    We have also requested authority to secure greater privileges and 
immunities for U.S. Government personnel serving at our consular posts, 
including those from agencies such as the Department of Homeland 
Security, Department of Defense, and Department of Justice. The best 
way to do so is on the basis of reciprocity. We seek the statutory 
authority for the Secretary of State to afford diplomatic privileges 
and immunities to foreign consular employees present in the United 
States on a reciprocal basis so that we can obtain the necessary 
immunities for U.S. personnel abroad that are more favorable than those 
set forth in the Vienna Convention on Consular Relations.
    Finally, we believe it is imperative to ensure that U.S. consular 
officers are notified of, and given access to, U.S. citizens when they 
are detained abroad. The best way to assure that our citizens abroad 
receive the strongest protections possible is by ensuring compliance 
with our own obligations relating to consular notification and access 
for foreigners detained in the United States.
              make the most efficient use of our resources
    The Department and USAID have asked for a total of $50.3 billion in 
discretionary funding for FY 2016. At roughly 1 percent of the Federal 
budget, this is a critical investment in the security and prosperity of 
the American people. We take seriously our responsibility to be good 
stewards of taxpayer dollars and there are practical steps that 
Congress can take to help us in this effort.
    First, we need authorities to provide greater flexibility to 
support fee-funded consular functions. Specifically, we seek 
authorities to slightly increase some border crossing fees, expand our 
use of fraud prevention and detection fees, and expand existing 
passport and visa surcharges. The FY 2016 budget also requests the 
authority to deposit consular fees into a new stand-alone Treasury 
account in order to make financial reporting of these fees more 
accessible to stakeholders. In taking these steps, the Department can 
increase the quality of its global consular service to the American 
people, devote additional resources to combating all types of visa 
fraud, and maintain high customer service standards for U.S. citizens 
who request a passport.
    We are also seeking to streamline how we meet existing 
congressional requirements for regular reports on key foreign policy 
issues. The Department remains committed to providing the most up-to-
date information to Congress through its various reporting 
requirements. We would like to work with Congress to refine these 
requirements in order to maximize the Department's efficiency in 
producing these reports. We have requested a mechanism to sunset 
reports older than 3 years and to repeal a number of reports that we 
have identified as obsolete, but which continue to absorb scarce 
Department resources.
    Finally, we are seeking authorities that would ensure our continued 
leadership in international organizations and international 
peacekeeping, which would enable the United States to continue to lead 
from within those organizations. We have requested authority to pay our 
peacekeeping dues at the assessed rate through the Contributions to 
International Peacekeeping Activities (CIPA) account, which will allow 
us to more effectively shape and to reform peacekeeping operations to 
deliver maximum impact and avoid potentially accruing new arrears at 
the U.N.
               strengthen and retain a talented workforce
    Secretary Kerry is committed to ensuring that the State Department 
retains the most talented employees in the Foreign and Civil Service. 
To do so, we are seeking a number of key personnel authorities, 
including enhanced benefits for employees serving at dangerous posts.
    Our top priority is to secure Overseas Comparability Pay (OCP) 
authority. Due to inequities in the Foreign Service pay schedule, 
Foreign Service officers deployed overseas have absorbed cuts to their 
basic pay compared to their domestic counterparts. In 2009, the 
Department started a three-phased initiative to correct this imbalance 
and, working with Congress, we have obtained temporary support for the 
first two phases.
    This issue directly impacts our ability to retain top-flight 
talent. The 2012 Federal Employee Viewpoint Survey (FEVS) found that 
more than 60 percent of officers said the elimination of OCP would 
deter them from bidding on overseas assignments, and that more than 50 
percent said they would either seriously or somewhat consider leaving 
the Foreign Service if OCP were eliminated.
    In a job market where the Department competes with major 
international businesses and other Federal agencies for a highly 
skilled labor pool, we cannot expect to employ the most talented 
employees if we maintain an inequity in our compensation structure. We 
believe it is critical to offer our overseas employees the same basic 
pay as their domestic colleagues. The best way to fix this disparity 
would be to continue the authority enacted in the FY 2009 supplemental 
appropriations act to implement Overseas Comparability Pay.
    We have obtained extensions of other personnel benefits, such as 
waivers of dual compensation limitations for reemployed annuitants and 
premium pay cap waivers, through annual appropriations legislation or 
in the National Defense Authorization Act. However, these authorities 
are temporary, limited in scope, and have often focused only on 
Afghanistan, Pakistan, and Iraq. We are seeking longer term authorities 
for these benefits and we would like to broaden them to support our 
workforce in other high risk, high threat locations.
    Mr. Chairman, the committee posed several specific questions in its 
invitation to me, some of which I will address briefly here.
    Your letter raised the need for more rigorous program evaluation 
across the Department. In January of this year, I issued a revised 
evaluation policy that will improve how we assess the breadth of 
activities undertaken by the Department. Bureaus are now required to 
conduct at least one evaluation per year and those with a large number 
of programs and projects will be expected to conduct more. The updated 
policy also emphasizes the use of evaluation findings to improve 
programs, make budget recommendations, and better inform policy.
    Your letter also asked for an update on United Nations reform and 
financial burden-sharing. We firmly believe that emerging countries 
must pay their fair share of United Nations budgets, as they have an 
increasing stake in ensuring the U.N.'s success in addressing global 
challenges. We expect to see assessment rates for larger developing 
countries continue to increase as scales are revised. We are also 
working to advance reforms to the scales methodology to better reflect 
changes to the global economy and ensure that wealthier developing 
countries shoulder a fair burden of the U.N.'s expenses.
    And your letter raised the issue of whether economic diplomacy 
receives enough attention at the Department. This is a critical issue. 
The 2015 QDDR will make economic diplomacy a key focus, and it will 
make recommendations to ensure the competitiveness of U.S. businesses 
abroad and job growth back home. This issue has been a priority for 
Secretary Kerry from day one.
    Mr. Chairman, a strong State Department authorization bill will put 
the Department of State on the strongest possible footing as we 
aggressively pursue the security and prosperity of the American people. 
Along with Secretary Kerry, I look forward to working with you on this 
important endeavor.
    Thank you and I am happy to answer your questions.

    The Chairman. We appreciate the testimony. Give us a sense 
of how the absence of an enacted authorization has impacted the 
operations of State.
    Ms. Higginbottom. Thank you, Mr. Chairman.
    In the absence of an authorization, we have many 
authorities. We have submitted to the committee about 60, many 
of which are noncontroversial but would really improve the 
efficiency and effectiveness of our operations.
    We have pursued through the appropriations process 
authorities here and there. But that is temporary. It makes it 
very difficult to plan. And there are key things as it relates 
to some of our personnel as well as security that we really 
need to have in an authorization on a permanent or long-term 
way.
    So the inability to plan, the inability to use our 
resources most efficiently, is the biggest vulnerability we see 
without an authorization bill.
    The Chairman. So you are working with an administration, a 
Democratic administration, as a professional, and what you are 
saying is that this is not a partisan issue. Not having an 
authorization impedes your ability to carry out our national 
interests around the world. Is that what you are saying?
    Ms. Higginbottom. Absolutely. As I am sure you know, 
Secretary Kerry, as chairman of this committee, wrote 
authorization bills for the same reasons that this committee is 
addressing it now. It will make our Department and our national 
security efforts better and stronger.
    The Chairman. Let me ask you a question. U.N. peacekeeping 
assessments on the United States are approaching 30 percent, 
despite being capped at 25 percent in U.S. law. Do the other 
permanent four Security Council members have a responsibility 
to share this burden with the United States at present?
    Ms. Higginbottom. Absolutely. As you know, Mr. Chairman, 
there are a key set of countries that take full responsibility 
and greater responsibility for peacekeeping. We have worked 
very, very closely with the U.N., both on its general reform 
program as well as cost efficiencies and savings in the 
peacekeeping programs.
    These peacekeeping missions are really important and in 
important places, but we have been doing everything we can to 
reduce those costs. In fact, the price per peacekeeper has been 
reduced by $18 since 2009, in large part due to our efforts, 
and we are going to continue that effort.
    The Chairman. Let me ask you this. Why are we contributing 
above U.S. law?
    Ms. Higginbottom. Mr. Chairman, one of the authorities that 
we are requesting is to increase the cap, which is now at 27 
percent, I believe, to the assessed rate of 28 percent. We need 
authority to do that.
    And the assessment has gone up because the assessment is 
made as a result of our percentage of global GDP and then some 
offsets from developing countries that do not pay their amount, 
that cannot pay their amount as part of the system.
    So what we need to do is continue to undertake our efforts 
to have the peacekeeping missions be cost-efficient and 
effective, and ensure that other countries are paying their 
fair share. That is the set of tools and expectations we take 
to the negotiations on the scale assessments in New York.
    The Chairman. But right now, China and Russia are not 
paying their fair share, right? And they are permanent members 
of the U.N. Security Council. They have the ability, for 
instance, to decide things like the Iran deal, it seems. They 
have a very special status. And yet currently, if you look at 
their GDPs, they are really not doing that. Is that correct?
    Ms. Higginbottom. This is a major priority for us. In the 
last negotiation, both China's and Russia's U.N. budget 
assessment was increased by 50 percent. We think that is the 
right direction, and we have to do more.
    The Chairman. And they are actually paying that?
    Ms. Higginbottom. They are paying 50 percent more than they 
were before, and we think that is the right direction, and we 
need to do more to ensure that those countries, like China and 
Russia, are paying their fair share.
    The Chairman. So I am a huge supporter of our Foreign 
Service officers. I am amazed at much of what they do. And the 
fact is, in many cases, they are in very, very dangerous 
places, carrying out our Nation's interests, in some cases in 
expeditionary kind of situations.
    They receive an assortment of special pays, including 
overseas comparability pay, cost-of-living adjustments, 
hardship pay, danger pay, priority staffing, post incentives, 
separation pay, and education and housing allowances. Since 
FSOs already receive significant extra compensation while 
abroad, why are you advocating that we pay them as if they were 
in Washington?
    Ms. Higginbottom. Mr. Chairman, just to delineate between 
the two types of pay, overseas comparability pay is intended to 
ensure that Foreign Service officers when they serve overseas 
do not receive a cut in their basic pay. The allowances and 
differentials that you reference are really about service in a 
particular country.
    So a cost-of-living adjustment, for example, is based on a 
basket of goods and an assessment in a country about what it 
will cost for our Foreign Service officers to buy basic goods. 
Hardship pay is just that, places where there is significant 
risk of disease, pollution, et cetera. Danger pay is for those 
Foreign Service officers who, as you say, serve in some very, 
very dangerous places.
    Such just to separate the two, the overseas comparability 
pay is about ensuring that when an officer leaves Washington, 
they are not looking at a 16-percent pay cut or greater, if we 
were to take all of OCP provisions away. If they were, for 
example, to go to a quite dangerous place and receive danger 
pay and perhaps a COLA and so forth, and they didn't receive 
OCP, they would essentially be making the same amount. It 
really wouldn't provide that incentive.
    So we think both are important. Those allowances and 
differentials are reviewed regularly to ensure that they are 
pegged at the right level. And that is something we would be 
happy to follow up with you on.
    The Chairman. I think we need to. Most of the diplomatic 
posts worldwide have a cost-of-living adjustment when the vast 
majority of them have cheaper local prices than Washington. I 
am just curious.
    I know we will talk privately. And I cannot tell whether 
this is something you have to advocate for publicly and really 
do not care that much about privately or not. But it just seems 
to me that it is odd that you would have both D.C. locality pay 
and a cost-of-living adjustment. I do look forward to talking 
to you about that.
    Again, I am significantly supportive of what our Foreign 
Service officers do.
    With that, I will turn to the ranking member.
    Thank you. I know we will have a number of questions to 
follow up. And I again want to thank Senator Perdue and Senator 
Kaine for their efforts at the subcommittee level.
    Senator Cardin. Thank you, Mr. Chairman.
    Just to follow up on the overseas comparability pay issue, 
I strongly support that. Two tranches have been included in 
your budget. The third has not.
    Following up on Senator Corker's point, I understand you 
have not included that because it is not authorized, but it 
seems to me that you could have submitted it with 
authorization. So how high of a priority is this? I hope it is 
a high priority.
    Ms. Higginbottom. It is absolutely a top priority, as I 
said in my testimony. We did not put it in our fiscal year 2016 
request. We are pursuing the authorization. However, if we are 
provided the authorization or the ability to provide the third 
tranche, we would pursue reprogramming, in consultation of 
course with Congress, to do that. We believe we have sufficient 
resources to address it, if we were to receive it in this 
fiscal year.
    Senator Cardin. I thank you for that clarification. I hope 
we can work together to get that authorized. I think it is an 
important point.
    Let me just turn to the J family bureaus for one moment. 
The first Quadrennial Diplomacy and Development Review created 
two undersecretaries, one for human rights, one for economics. 
I want to talk a little bit about the human rights for one 
moment.
    It certainly put a focus on it, but there is a concern it 
also could have stovepiped the concerns rather than having all 
of the Departments working together to advance the goals of 
human rights. What steps have you taken to make sure that human 
rights are prioritized through all the functions of the 
Department of State?
    Ms. Higginbottom. Thank you, Senator.
    We really take our guidance and direction from the 
Secretary on this. As he has said multiple times, human rights 
are part of our bilateral engagement across the world. It is 
really U.S. leadership that has in many, many places put these 
issues on the map.
    We face this tension around specific issues and our 
regional bureaus in many fronts. It is really important that we 
have good integration across the organization and at posts of 
these priorities. So that is the directive that is given, to do 
that.
    We have a very strong assistant secretary who deals with 
human rights issues. He is consistently identifying priority 
countries and working with those assistant secretaries and with 
those teams to highlight where we can make progress. He does 
his own travel, as does the Under Secretary, to those places, 
to advance those issues in coordination and collaboration with 
the regional bureaus and posts.
    So it is really the direction from the top that is 
important and then the continued followup that is critical. 
This is an area we always, I think, can do better on in 
ensuring that we have coordination and collaboration. It has to 
be about leadership, and it has to be about commitment to the 
issues.
    Senator Cardin. I would hope that, as we move forward in 
considering authorization, that you will have some specific 
recommendations in regard to both baskets, the economic basket 
and the human rights basket that came out of the review, as to 
how we can give statutory strength to that commitment within 
the entire Department.
    Ms. Higginbottom. Thank you, Senator. I think when you see 
the second Quadrennial Diplomacy and Development Review 
shortly, we are paying close attention to those issues and how 
internally we can better integrate and highlight both on human 
rights and on economic diplomacy.
    Senator Cardin. Thank you.
    Let me turn to international organizations for one moment. 
The Chair mentioned the United Nations and reforms within the 
United Nations. There is always concern about the United 
Nations. I am a strong supporter of our participation in the 
United Nations, let me make that clear. But there are concerns 
about how it functions.
    We saw during the Israeli-Palestinian conflict that UNRWA 
facilities were used by Hamas to hide rockets. These types of 
concerns are obviously counter to the mission of the United 
Nations.
    What type of accountability, considering our significant 
participation, do we have to make sure that the United Nations 
is more efficient and focused on its principal missions?
    Ms. Higginbottom. Thank you, Senator.
    We acknowledge the U.N. system is not perfect. That is why 
we have been so focused on the reform agenda in this 
administration. We think it is essential to dealing with the 
many global challenges we are facing, but that we must bring 
our leverage, the fact that we make a significant contribution 
to the system, to increase transparency and accountability.
    There are several specific reform agenda items that we have 
pressed. One is transparency of the evaluation and audit 
functions. We are working with them right now to strengthen 
whistleblower protections. Due to some of the work we have done 
with them, they have saved over $100 million in recovered funds 
that were improperly disbursed. It is our belief that our focus 
and attention on these issues is critical to ensuring that this 
agenda is undertaken at the U.N.
    So we continue this focus, and we will continue bringing it 
forward. We have also been successful in supporting an 
independent audit advisory committee, which systematically 
looks at these issues. So this is a focus we will continue 
going forward.
    Senator Cardin. A lot of times, other regional 
organizations that we belong to get lumped into one discussion, 
and they are all quite different. I am very familiar with the 
OSCE, having been the chair of the Helsinki Commission here in 
the last Congress. And I think we all recognize the importance 
of the OSCE in regards to the ongoing problems between Ukraine 
and Russia. The OSCE is a model organization, as far as the 
ability to have a consequential impact for stability in Europe 
and Central Asia.
    The OAS is not quite as visible in its help in dealing with 
some of the regional problems in our own hemisphere, even 
though it is headquartered right here in Washington.
    So what review is being done of the regional organizations, 
so that we take the best practices where they are working and 
try to improve the other organizations we belong to, and make 
substantial contributions, so that they can be more effective 
in carrying out U.S. goals?
    Ms. Higginbottom. Thank you, Senator.
    Our Bureau of International Organizations is very focused 
on this question. I actually was able to attend the last 
meeting of the OAS. A big part of the conversation there was 
about how we strengthen that organization. A lot of it was 
informed by best practices in other regional or multilateral 
organizations.
    So how it works bureaucratically at the State Department is 
that our Bureau that focuses exclusively on international 
organizations works closely with the regional bureau that has 
the principal diplomatic engagement role. In a lot of places it 
is about political will, it is about aligning support, it is 
about bilateral engagement behind these reform efforts.
    So I think some of that is going on in a productive way, 
particularly in the OAS.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman. And thank you, 
ranking member, Senator Cardin.
    I want to thank both of you for your leadership last week. 
Senator Cardin, in very difficult circumstances stepping in. 
But I want to thank people on both sides of the aisle.
    Last week, I think we had a milestone of bipartisanship. As 
a new member, I am very encouraged. I think today is another 
example of an opportunity we have to do the right thing and put 
partisanship aside and help the State Department through this 
reauthorization.
    Madam Secretary, thank you for your forbearance and for 
your initiative in reaching out to the committee and helping us 
understand some of the issues.
    For the record, I want it to be noted that Secretary 
Higginbottom has been very forthright in private meetings and 
has helped us prepare for today's hearing.
    I also would like to thank Senator Kaine for his 
leadership. He and I cochaired this subcommittee yesterday, and 
we had a lot of good information with the inspector general. I 
would like to follow up on two observations I think that came 
out of that, Madam Secretary.
    I think there were two issues that were brought up before 
the committee yesterday. One was IT independence of the 
Inspector General Office and other was right of first refusal 
for a look at accusations or evidence around misconduct within 
the organization.
    I am anxious to get to the operational issues, because you 
are the COO of a $50 billion operation. With my background, you 
and I have had great conversations, and I would like to have 
more for the record.
    But today, I would like you to focus on this IT issue with 
me just a minute. It looks like there are thousands of 
administrators who work for State who might or might not have 
access to independent investigations, as well as, it looked to 
me like yesterday, when we asked the question if there was a 
breach in the State system, the IG wouldn't necessarily know it 
immediately.
    Mr. Linick actually testified yesterday that the State 
network has actually been attacked and that it affected the 
Office of the Inspector General. He also told us it took over 6 
months to get an agreement with Diplomatic Security. Going 
forward, they will notify the OIG when they go on their IT 
network.
    That is a memo of understanding, as I understand it. And 
with the change of administration, that may or may not be 
continued into the next administration.
    Would you comment on this IT independence issue and also 
right of first refusal, as well as this potential breach issue?
    Ms. Higginbottom. Yes. Thank you, Senator. And I have 
enjoyed our conversations and look forward to continuing them.
    I meet, as you know, with the IG every week. We discuss 
issues like the ones you just raised. We worked through the 
issue of trying to get an MOU so that there was notification of 
any entry onto the system.
    Just recently, the IG has brought to my attention, as well 
as to Secretary's, the request for a separate IT system. We are 
looking at that very carefully. We are seeking to understand 
how it would work. They need to have, as he testified 
yesterday, some access to the system they currently have, the 
architecture. We have to make sure our system is as secure as 
it possibly can be.
    We are attacked every day, thousands of times a day. So 
those are difficult issues, but we are looking at that now and 
examining it.
    It is also important that we understand the cost.
    Senator Perdue. I am sorry to interrupt. Have you actually 
had a breach that you can talk about?
    Ms. Higginbottom. I can tell you, Senator, that we have 
been breached. This has been reported. Any further details of 
that, I would be happy to discuss in a different setting.
    So we continue to work through that, and I look forward to 
making progress on understanding how it would work and what it 
would cost.
    With respect to the right of first refusal, this is an 
issue that, as you know, Secretary Kerry appointed the IG, a 
confirmed IG, which is important. He has been looking at a 
variety of different functions to understand how this office is 
set up. This is an issue he has brought to our attention.
    I have some information that we are analyzing to understand 
how it would affect statutory authorities we have, for example, 
in reporting civil rights violations and other things.
    So we are continuing to talk and understand what this will 
take, and I have confidence that we are going to be able to 
work through it.
    Senator Perdue. Thank you.
    Let me echo the chairman's comments earlier about Foreign 
Service professionals. I just returned from a trip to 
Afghanistan and Iraq. I have to tell you my observations are 
that these men and women are the best and brightest. They are 
working in very tough situations. They deserve our highest 
support, and they are doing a fantastic job right now. So I am 
honored to be an American and have these people supporting us 
out there.
    Yesterday, in testimony, the inspector general highlighted 
the three purposes or missions, if you will, and if these are 
incorrect, I would love you to add to them. Being the COO of 
the State Department, it is your job basically to make sure 
these missions are fulfilled operationally.
    One is to improve the protection of people. These are the 
Foreign Service professionals, as well as here at home. The 
second is management of contracts, spending of money, 
procurement, and grants. And then the security of sensitive 
information. You have spoken to the third one. Would you speak 
to the other two, and then talk about the operational 
difficulties you have seen in the first year and what 
conclusions you are coming to in terms of improving 
effectiveness?
    Ms. Higginbottom. Thank you, Senator.
    The safety and security of our personnel and facilities is 
of critical importance. It starts with the Secretary and it is, 
certainly, my responsibility as well.
    Since the tragic events in Benghazi, we have done a full-
scale review of our security posture, processes, et cetera. 
That is a major focus of my time. I meet every week with our 
Diplomatic Security Assistant Secretary. We are in weekly 
meetings on all of these issues, overseeing ARB implementation, 
et cetera. It is a major part of my responsibility and the 
Department's responsibility. I can go into more detail about 
that.
    With respect to contracts and grants, we really appreciate 
that the IG has created this new tool or mechanism to highlight 
where he sees big weaknesses. In this case, he has highlighted 
IT security contracts and grants. We received nine specific 
recommendations that we have moved forward with.
    It is this role, a robust IG role, that Secretary Kerry 
wanted to have in appointing a confirmed IG. So we appreciate 
this collaboration.
    But it is not just implementing those recommendations, 
which we have done. It is the continued attention and focus on 
it. When Steve and I meet, when inspector general and I meet, 
we talk about these things regularly.
    Senator Perdue. Well, I have to say, for the record, he 
said the same thing. He highlights these two areas. But we have 
all had auditors in past lives, and his role is beyond that. 
His role is to be a partner of yours. I applaud you for looking 
at it that way.
    Mr. Chairman, that is all I have now. Thank you.
    The Chairman. Thank you. I am glad we have someone who has 
run major operations to work with this.
    With that, Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you, Madam Secretary, for being with us today.
    Let me add my compliments to Senator Perdue's, with respect 
to the men and women who are serving. As danger and chaos 
spread around the world, there are very few places in which you 
can be working for the State Department and feel totally safe 
and secure. So I think we are all in awe of the great work they 
do.
    I know we are talking about the confines of your budget 
allocation and what you get to do within that budget 
allocation, but just lend a bit of perspective here, in 1950, 
when the United States was helping to rebuild Europe, win 
friends, and try to marginalize our enemies, we were spending 
at that point about 3 percent of our total GDP on foreign aid. 
Today, that number is about 0.1 percent, 0.2 percent of overall 
GDP. That is a 94-percent reduction in the amount of money that 
we are spending to try to win friends and influence enemies and 
adversaries around the world with respect to our State 
Department budget.
    I do not know that the effectiveness of that programming 
has decreased by 94 percent during that time. At the same time, 
today, our DOD budget is about 10 times that of our State 
Department budget. I do not know that the tools in our military 
budget are 10 times as effective as the tools that you have.
    So I hope that, over time, we will get to have a 
conversation about whether the allocation that we are giving 
the State Department today, given the kind of threats that we 
face, is sufficient.
    But given that we are stuck where we are, I wanted to ask 
you about flexibility today. Just two quick examples.
    As we have some modicum of success in pushing al-Shabaab 
out of some of its safe havens in Somalia, they are moving. For 
instance, they are moving into Kenya, something that we might 
not have thought of a year or two ago.
    In the Middle East, the World Food Programme ran out of 
money at the end of last year, all of a sudden threatening to 
be unable to feed thousands of refugees who were going to 
probably turn to extremist groups like ISIS, if they did not 
get fed to the World Food Programme, examples of where the 
State Department needs to move money when circumstances change.
    Can you speak a little bit about your ability to move money 
within your budget and what we could do in the context of an 
authorization to unearmark some of these dollars that probably 
are counterproductive the way that they are programmed today?
    Ms. Higginbottom. Thank you, Senator, both to you and 
Senator Perdue for the kind words about the Foreign Service 
officers. It means a great deal to them to hear that.
    So there are so many complex challenges that we are dealing 
with. As we budget, we cannot anticipate all of them.
    We budget a year in advance. We work with Congress. We get 
appropriated resources. And then an emerging crisis happens and 
we need flexibility to be able respond to it. We work through a 
consultative process to try to do that, but that is a limited 
ability to move funds around.
    We have some provisions in our appropriations that allow us 
to move a certain percentage of funding, but it is very often 
insufficient to meet what a need is, and it is extremely 
challenging.
    Just in terms of the overall allocation question, 
obviously, this is a difficult time in terms of the overall 
top-line budget number. And when we look at how the 
appropriations process might shape up for next year, for 
example, if we see cuts to the extent that they are being 
proposed, there are so many aspects of our operations and 
assistance that would be dramatically impacted, whether it is 
humanitarian or some of the anti-ISIL work that we are doing.
    So it is top of mind to us, but the flexibility is really 
critical. We are grateful for the flexibility we do have, but 
we need additional flexibility to really be able to respond and 
prevent things from becoming worse crises than they have been, 
which is one of the reasons you hear Secretary Carter or other 
Defense Department officials supporting our budget request, 
because they see it as an investment that protects crises from 
growing and becoming more of their problems.
    Senator Murphy. An example of where you might want to shift 
resources into is public diplomacy. We have seen the 
militarization of information from ISIS, from the regime in 
Moscow. And we are stuck with a pretty antiquated way of 
getting our message out.
    The Broadcasting Board of Governors is getting better, but 
as we heard yesterday, they are a work in progress.
    Can you talk to us a little bit about, as you are preparing 
this strategic review, as you are asking for money, how you see 
the ability of the State Department to reform public diplomacy 
counterpropaganda campaigns, given the fact that our 
adversaries are plussing-up these accounts, buying out press 
outlets, in the case of Russia, in its periphery in a way that 
we could have never anticipated, or would have been hard to 
anticipate, just a few years ago?
    Ms. Higginbottom. Yes, thank you. It is a really important 
priority, Senator, for the Secretary, for the Under Secretary 
of Public Diplomacy, who has been working very hard with 
countries around the world to counter the ISIL messaging, in 
particular. But we are doing it sort of out of hide, where we 
can find resources to support it.
    What we need to do is modernize the way in which we engage 
our public diplomacy efforts, and we are doing that. But we do 
not want to take that away from our traditional exchanges in 
other programs.
    So we are being as innovative as we can be, and we are 
collaborating with partners around the world. But to really be 
able to be at the scale we should be, we need a much bigger 
investment there.
    We do some metrics, of course, to see how our 
countermessaging is going, and we can see some progress. But it 
is not commensurate with what we are dealing with.
    Senator Murphy. I would just make the pitch to my 
colleagues that the numbers we are talking about are actually 
not extraordinary. This is not billions of dollars. This is 
tens or hundreds of millions of dollars that are necessary, in 
order to try to have some capacity to match what countries like 
Russia are doing in and around the region. It is a pretty, I 
would say, reasonable investment.
    Mr. Chairman, to you and Senator Cardin and Senator 
Menendez, thank you very much for making this a priority. I 
know that the reauthorization has not happened for a long time 
because it is not easy, because it is tough, because it puts us 
in a position of having some debates that are sometimes 
uncomfortable. But what I think what a lot of us love about 
this committee is that through your leadership and Senator 
Menendez and now Senator Cardin, the relevance of this 
committee has fundamentally changed and our ability to do a 
reauthorization I think is part of a trendline that is really, 
really positive when we talk about reasserting Congress' role 
in being a coequal branch with the administration on setting 
foreign policy. So thank you very much for this hearing.
    The Chairman. Well, thank you.
    And if I could take personal privilege for a moment, you 
know, it is only a few issues where we have had significant 
disagreements. And I think if we can build off an authorization 
that does not have many of those issues in it, and do those 
things that we agree upon, I mean, let's do this in a 
bipartisan way, we can give Heather and the Department the 
flexibilities they need, the strength they need, we can build 
from that the next year.
    So I thank you very much for your comment.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman. And thank you to 
the Deputy Secretary for being here this morning.
    A couple comments I heard this morning that I want to echo 
as well. Senator Perdue, myself, several other Members, 
traveled with Leader McConnell to the Middle East, engaging in 
a series of conversations with leaders. But also the Foreign 
Service officers that we met were incredible professionals, 
very, very well-informed, helping us come up to speed on a 
number of issues.
    It brings to light the reality that they face each and 
every day when we come back to work here and see on the news a 
bombing in Erbil with the consulate staff right there that we 
had just met with in Erbil just last week. So thank you for the 
work that they do.
    To Chairman Corker and the ranking member, I think it is 
nice to see a series of articles that are being written today, 
yesterday, Hill publications, off-Hill publications, about some 
of the thawing of dysfunction in Washington, DC. Each that 
story talks about how we are starting to chip away at the 
dysfunction of Washington leads with the work that this 
committee is doing, or at least includes a mention of the work 
this committee is doing. So it is nice to see. I hope that sort 
of erosion of dysfunction in Washington, DC, continues. So 
thanks for the work you are doing.
    This is an important hearing. It is important because 
America has a responsibility to maintain its leadership role 
around the world and to continue responsibly investing in our 
foreign assistance and diplomacy programs.
    As chairman of the East Asia and Pacific Subcommittee, I am 
particularly concerned with sustained funding and oversight for 
this vitally important region. The East Asia-Pacific region is 
comprised of 35 countries, a third of the world's population, 
and some of the world's most dynamic economies, including a 
rising China.
    We must ensure that our policies in the region strengthen 
existing friendships and build new partnerships that will be 
crucial and critical to U.S. national security for generations 
to come.
    At the heart of the President's Asia pivot, or the 
rebalance policy, is a shared belief that despite the crises of 
the day, our long-term strategic interests lie in the Asia-
Pacific region. This is why it is crucially important that we 
conclude the landmark Transpacific Partnership, TPP, and 
increase our security presence and our security partnership in 
the region to reassure our allies that the United States is 
here to stay.
    I am not convinced that the State Department funding 
priorities adequately reflect the intent of the rebalance 
policy. The administration is investing $846 million in this 
budget to support the rebalance policy, which is an 8-percent 
increase from 2014. However, if you consider the broader 
funding picture in the fiscal year 2016 foreign operations 
request, the EAP ranks dead last of any region at 4 percent of 
the total. I believe that we need to do better.
    The questions we need to consistently be asking are, does 
U.S. assistance help our partners in the region to address 
pressing security challenges, such as countering China's 
destabilizing activities in the South China Sea or effectively 
responding to North Korea's continuing provocations? Are we 
building trade capacities in the region to enhance 
opportunities for U.S. exporters? Are we helping to promote 
democratic governance, enhance the rule of law, and improve 
human rights?
    That is why I was proud to offer an amendment with Senator 
Cardin, Senator Menendez, to the budget resolution, which 
passed unanimously, which sought independent oversight of our 
spending to support this important policy.
    Last year, this committee offered a report titled 
``Rebalancing the Rebalance,'' outlining some of the successes 
and shortcomings of the administration's policy. In particular, 
the report stated, ``The administration can improve the 
effectiveness and sustainability of the rebalance policy by 
increasing civilian engagement, strengthening diplomatic 
partnerships, and empowering U.S. businesses.''
    Do you believe the fiscal year 2016 budget adequately 
reflects President Obama's stated goal to significantly 
increase our commitment to the Asia-Pacific region?
    Ms. Higginbottom. Thank you very much, Senator.
    The fiscal year 2016 budget as a whole reflects what we 
think is a reasonable request to fund our programs, operations, 
and foreign assistance. I think it is fair to say on behalf of 
the Secretary, we would like to have more than even what we 
were able to request in the President's budget. We understand 
the budget constraints and the conversation that is happening 
here and with the administration about overall discretionary 
funding levels. In fact, our request is above the Budget 
Control Act levels, which currently, the budget committees have 
written bills to and appropriations committees will look at.
    So overall, we would like to have more resources for the 
Asia-Pacific region, absolutely, and many other places as well. 
We are trying to manage the best we can in a tough environment. 
And the fact that, given overall our budget request is about 
level, finding an 8-percent increase over the previous year's 
request means we are doing less of other things. And we are 
trying to prioritize.
    Senator Gardner. So with an answer in mind, do you believe 
the State Department has acted on the committee's 
recommendations outlined in the report that I cited?
    Ms. Higginbottom. I have not reviewed that report, Senator. 
I will be happy to follow up with you and provide some 
additional information.
    Senator Gardner. That would be great. Thank you.
    [The written response to Senator Gardner's questions 
follows:]

    Ms. Higginbottom. We agree that it is important to continue to 
implement a carefully coordinated and comprehensive strategy for the 
U.S. Rebalance to the Asia-Pacific region. We have implemented many of 
the recommendations in the report and are continuing to assess others 
within the context of budget and operational constraints and 
administration priorities.
    Over the last 6 years, our Rebalance to the Asia-Pacific has 
established a ``new normal'' of coordinated and intensified engagement 
in the region. We are committed to extensive collaboration with Asian 
allies and partners on important global issues and sustained engagement 
by the President, Secretary Kerry, and other Cabinet and senior 
officials.
    The State Department and USAID's $1.4 billion FY 2016 budget 
request for East Asia and the Pacific demonstrates that our focus goes 
beyond just words: we are dedicating more diplomatic, economic, 
military, public diplomacy, and assistance resources to the region in a 
way that is commensurate with the truly comprehensive nature of our 
engagement. This funding allows us to maintain a robust presence as a 
preeminent trade and investment partner, security guarantor, and 
supporter of democracy and good governance throughout the region.
    We are also making progress on other goals cited in the report. Our 
public diplomacy efforts are carefully coordinated to support the 
multidimensional nature of the rebalance to advance mutual 
understanding, support regional public diplomacy priorities, and foster 
deeper people-to-people ties. For example, we have launched new 
initiatives such as the Young South East Asian Leadership Initiative to 
strengthen partnerships by building the leadership capabilities of 
youth in the region.
    We are also working to complete the Trans-Pacific Partnership (TPP) 
agreement to tap into the economic dynamism of the East Asia-Pacific 
region. The most important thing we can do for our economic 
relationship with East Asia is to complete the TPP agreement--which 
also is critical to the future of our economy as it becomes 
increasingly linked to the region.
    In addition, we've made significant progress in enhancing 
cooperation with China as we encourage Beijing to become a responsible 
actor on the world stage. Last November, President Obama and President 
Xi took a historic step forward by jointly announcing our respective 
climate change targets, where China announced a cap on greenhouse 
emissions over the next two decades. We are also working with our ASEAN 
partners to promote regional security and economic integration. We are 
now seeing ASEAN take stands on issues of global importance such as 
ISIL, Ebola, climate change, and the launch of the ASEAN Economic 
Community later this year will be an important milestone for 
integration.
    U.S. Government agencies regularly coordinate their efforts 
concerning strategy implementation and strategic outreach in the Asia-
Pacific region, and we strive to create a unified voice and align 
diplomacy, development, and defense objectives under a comprehensive 
Asia-Pacific rebalance strategy. This includes an active and 
regularized interagency joint planning and strategy review process, 
which will soon enter its fourth year.
    At the agency level, in 2013 the Department of State and USAID 
completed a joint, multiyear planning and budgeting process for the 
Asia-Pacific region that links strategy with resources, and supports 
program activity with strengthened management guidelines and evaluation 
oversight. Specifically, in close coordination with international 
partners and other U.S. Government agencies, the Department of State 
and USAID have established an integrated diplomacy and development 
strategy in support of the following regional goals: Deepen Security 
Ties and Alliances; Increase Economic Growth and Trade; Strengthen 
Partnerships with China and Emerging Partners; Shape an Effective 
Regional Architecture; and Supporting Sustainable Development, 
Democracy, and Human Rights.

    And what initiatives is the State Department pursuing in 
the new year, the fiscal year 2016 budget, to further our 
engagement and build partnerships in the EAP region?
    Ms. Higginbottom. I just want to highlight the Transpacific 
Partnership, because that is, in our view, the most critical 
part of our policy and our approach, and obviously an issue 
that is being addressed up here right now. And that is 
critical.
    There are several other initiatives. We have been investing 
in Burma. We have been looking at the opportunities in Vietnam. 
There is a whole series of initiatives we are trying to open 
markets and strengthen growing economies. And we will continue 
to have that focus going forward.
    Senator Gardner. I had a great conversation with a series 
of Asia policy experts last night, a long conversation about 
the importance of the United States presence in the region, the 
continued willingness of U.S. policy leaders, policymakers to 
show up, to be a part of discussions.
    With the changeover in elections every 2 years, every 6 
years, new people coming to the table, it is important that we 
continue to show up and to show the region that we are 
committed to delivering our partnerships.
    The committee report that I mentioned also stated that the 
fiscal year 2015 budget request for EAP diplomatic engagement 
is the second to last of all six regional bureaus, or 8 percent 
of the total, despite the region's 35 countries accounting for 
nearly a third of both the world's population and GDP.
    Furthermore, EAP Bureau funding has decreased nearly 12 
percent since its 2011 peak.
    So just a question that you may have to get back to me on, 
and I am running out of time, compared to last 5 years, how has 
our diplomatic and trade engagement expanded? How many new 
Foreign Affairs officers and trade promotion officials have we 
added to the region?
    Ms. Higginbottom. I would be happy to follow up with you. I 
do not have that data today. But we will to that.
    Senator Gardner. That would be great. The numbers I cited 
from 2015, I would be curious about how they are reflected in 
the 2016 request as well.
    Thank you, Mr. Chairman.
    The Chairman. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    I appreciate you continuing to move in this direction. I 
think this is one of the most critical elements that the 
committee can pursue. It is a serious undertaking, and one that 
ultimately is I think primal in terms of what the committee's 
effort should be to help the State Department achieve its 
goals.
    I want to echo the statements made about our Foreign 
Service officers. I think they are the unsung heroes of 
national security and national interest promotion for our 
country. Recognizing them is incredibly important, which is why 
I want to come to my first question.
    When you were here before the committee about a year and 
half ago as a nominee, I raised questions with you about our 
diversity in the Foreign Service and in the senior Foreign 
Service.
    To be honest with you, a year and a half later, I do not 
see anything much better, which is disappointing. I do not see 
any real effort to have the Foreign Service reflect the face of 
America, which I think is incredibly important, in terms of 
promoting the essence of America abroad, in addition to its 
ideas and ideals.
    I heard from several groups about the impact of assignment 
restrictions and preclusion programs that appear to disparately 
impact Hispanic, African-American, and other ethnic groups.
    So what can you tell me today that is better significantly 
in any way than it was a year and half ago?
    Ms. Higginbottom. Thank you, Senator.
    What I can tell you is what I have done since I was last 
before this committee on this question. When I was confirmed, 
one of the very first things I did was ask for a comprehensive 
review of what steps we have taken, what the data looks like, 
and what tools we have that have resulted in the improvements 
we have seen in the diversity of the Foreign Service and civil 
service.
    That was a very data-driven and very exhaustive review that 
really showed that the biggest impact we have had was with the 
changes in the exam procedures that Secretary Rice initiated 
several years ago, and that has had the greatest impact.
    The second greatest impact has been the Pickering and 
Rangel fellow programs. Those are programs that we think are 
vitally important, and we can see and track how people are 
coming in, and their racial----
    Senator Menendez. Those have existed for some time.
    Ms. Higginbottom. They have. And we are looking at how 
people learn about them, how they apply, how they come in. 
Those are really important.
    The places where I think we have room for improvement and 
we are making improvements just with our existing resources, 
first, we have some paid advertising for recruiting. I am not 
convinced that that is necessarily moving the needle in terms 
of who is applying, and we are looking at that closely to see 
how we might change that. And the second is our diplomats in 
residence program, which is a very important program in which 
we have diplomats at universities doing recruiting. I met with 
all of them when they were in Washington recently to talk about 
how their strategic plans needed to be more closely aligned 
with what our diversity priorities are.
    I am working closely with our newly confirmed director 
general, Ambassador Chacon, who you know, on this question. And 
it is really, really important.
    So I cannot point to a specific number today, Senator, but 
I can tell you it has our attention and our focus. But the 
thing that is even more important in my mind right now than 
recruitment is ensuring that we are really focused on retention 
of the diverse Foreign Service officers we do have, so that we 
can see them in the senior levels as they come through the 
system.
    Senator Menendez. Well, let me just say that I appreciate 
your answer, but nothing that you have said there is different 
than what was happening before. Nothing.
    So if nothing changes in terms of how you approach it, 
nothing will change in terms of the results.
    The State Department has one of the worst records of 
diversity of all the Federal agencies. And it is of all the 
places, in my mind, one of the most critical ones to be able to 
pursue this. So I am disappointed that a year and a half later, 
I basically heard your answer be replicating what has already 
taken place.
    So it seems to me that unless at the very top there is a 
clear message throughout the Department that diversity is 
important, and that part of the judgment standards that will be 
held against those who are in management positions is how well 
you are doing in this regard, that is not going to change.
    I hope you are going to look at assignment restrictions and 
preclusion program, because that only exacerbates the problem.
    If you are going to have a quadrennial review, I just hope 
you also have some element in there about how you going to 
change what is an issue that I have been working on since my 
days in the House of Representatives. It is not just this 
administration. It goes back several. But it has not moved the 
needle forward, and it has not promoted our interest.
    So disappointed. I hope you can do a lot better the next 
time you are here.
    Let me ask you, in a different context, economic 
statecraft, I started an initiative where what I would like to 
see, and I am wondering whether you have any focus in this 
regard, not in the just traditional economic statecraft, but 
how do you create a whole-of-government approach to helping 
American businesses promote their products and services abroad?
    For me, I look at our agencies as they exist right now, and 
we have a lot of great agencies, but they are all working out 
there on their own spheres, from OPEC, Ex-Im, TDA, Foreign 
Commercial Service. But there is no whole-of-government 
approach, unlike other countries, that powerfully promote 
business interests abroad in terms of products and services, 
which at the end of the day mean jobs here at home, which is my 
major focus and why it is important.
    And some of our ambassadors simply, to be very honest with 
you, do not see economic statecraft as something that is very 
important in their portfolio. Of course, depending on the 
country you are signed to, there may be major bilateral issues, 
but that does not mean you cannot promote economic statecraft 
as part for that.
    I consistently hear from American businesses, both here at 
home and as I travel abroad, that they compete against other 
companies from other countries in the world in which their 
countries are actually very much engaged in pursuing helping 
them achieve market success.
    So can you give me any sense of whether the quadrennial 
review is going to include something along those lines? Or 
separately, are you doing something along those lines?
    Ms. Higginbottom. Sure, Senator. Just one point of 
clarification, we are taking steps on diversity. We were 
scheduled to have seen you a little while ago with Director 
Chacon. We can go into more detail, and I want to continue that 
conversation.
    On the economic diplomacy front, as I alluded to in my 
testimony, we will have economic recommendations, specific 
economic diplomacy recommendations in the second QDDR. I would 
also note that at post, under the chief of mission authority, 
Foreign Commercial Service econ officers we have there are 
tasked with doing that work and coordinating.
    What we want to do is ensure that the priority on this is 
elevated across the Department, across all of our posts. Both 
Secretary Clinton and Secretary Kerry have been very focused on 
that. We have some concrete ways and thoughts about how to do 
that.
    We also hear from many businesses that find great allies in 
our embassies in doing that.
    So part of it I think is connecting. We set up a new system 
called the bid system that transparently shows from a post 
where there is an opportunity for a business investment and 
allows businesses to look at it. It is divided by sector. You 
can export the data in different formats. So we are looking for 
different tools to improve that, and we will have some concrete 
recommendations in the QDDR.
    Senator Menendez. I look forward to seeing it.
    Thank you, Mr. Chairman.
    The Chairman. Senator Flake.
    Senator Flake. Thank you, Mr. Chairman.
    Thank you for the testimony. Let me talk about OCO, 
Overseas Contingency Operation funding. As you know, the Budget 
Control Act, there are spending caps on international affairs, 
but that which the President and Congress designate as Overseas 
Contingency Operations are not subject to that budget cap. 
There is no definition of OCO in statute, and the State 
Department began requesting OCO funding in 2012 and has 
requested some ever since. As we know, that just adds to what 
is in the base budget.
    I am just trying to get a sense of where we are going here. 
Secretary Kerry, answering questions that I asked, wrote back 
saying these were for extraordinary circumstances, unforeseen, 
but we keep requesting it.
    The State Department, when it first requested, it was just 
for Iraq and Afghanistan. And then Pakistan was added, then 
Syria, now Jordan, Ukraine. I am just wondering where it stops 
here.
    Can you give me a sense of how long we are going to use 
this device and have spending that is not subject to budget 
caps?
    Ms. Higginbottom. Thank you, Senator, for the question.
    OCO, as you stated, was created to deal with extraordinary 
costs in the frontline states. As I am sure you know, 
traditionally, when the State Department has confronted an 
emerging crisis or an unbudgeted emerging problem, Congress has 
turned to supplementals or provided additional appropriations. 
It has been many years, with the exception of Ebola last year. 
It is not regular order now to have supplementals.
    OCO has been an important way for us to address 
extraordinary costs. We are still in an extraordinary period of 
time with respect to Iraq and Afghanistan. And there have been 
emerging crises that we have had to turn to OCO, the crisis in 
Syria and Jordan, obviously as an outgrowth of that.
    One step that we have taken in the fiscal year 2016 
President's budget is to ensure we are going through a process 
to migrate what are truly base costs into the base, and that is 
a DOD responsibility as well as a State Department 
responsibility, and be able to only ask for or request and fund 
things that are temporary, unforeseen, or truly extraordinary 
in OCO.
    So in terms of the length or period of time, it can be a 
different budget mechanism. On the domestic side we have in the 
Budget Control Act created a disaster cap. You do not know when 
a disaster will happen. You know you need resources. There is a 
regular way to do it, and it is part of the Budget Control Act 
that is envisioned under the caps. We could entertain another 
mechanism to do this.
    But what is not possible is to not be able to respond to 
emerging crises that we have a shared belief we should be 
engaged in. So I think with respect to OCO and the path 
forward, we are moving in a good direction to ensure the base 
costs are regularized, but I think there is a larger issue 
about how, in the absence of regular supplemental appropriation 
bills, what budget mechanism we can use to address emerging 
crises.
    Senator Flake. Well, I am just wondering, when we are using 
OCO funds for the operation of embassies in some of these 
areas, do we foresee having embassies in perpetuity in 
Afghanistan and Iraq?
    Ms. Higginbottom. Senator, those--excuse me.
    Senator Flake. If so, how can we say that these are 
extraordinary or unforeseen expenses?
    Ms. Higginbottom. Regularized operations of embassies 
should be funded in our base appropriations.
    In Afghanistan, we are moving to a civilian-led presence. 
We have to assume a lot of responsibilities that the military 
provided before. Paying for those, setting up a trauma unit, 
providing additional security, those are not ongoing. They are 
operational costs, and we have turned to OCO to fund those.
    The same with the sum of the airlift capacity we have 
there.
    But we do not see that as an ongoing cost that we would 
fund forever in OCO.
    Senator Flake. But we feel the need to put it in there now, 
though?
    Ms. Higginbottom. That is correct. And our goal is to move 
truly base costs to base, and operational expenses that are 
truly unique and one-time, that OCO is the appropriate place to 
fund them--security upgrades, as I mentioned, the trauma unit, 
other things like that.
    Senator Flake. Well, the concern here, obviously, is that 
we simply supplant and free up money in the base budget for 
things that may not be the priority.
    I mean, let's face it, by definition, the State Department 
is going to be dealing with unforeseen circumstances. There are 
always those and I would suggest that we better find a way to 
way to deal with that in the base or the enduring budget, 
rather than going to OCO.
    I mean, like I said, we have only started with the State 
Department. It was first just the DOD. Now it is State 
Department, just for the past couple years. I see that as a 
growing trend, and it is a dangerous one to have so many lines 
off-budget.
    Let me just say, for those of us who are concerned that we 
are simply supplanting or freeing up money in the base budget, 
there are programs that have received some criticism, like the 
Art in Embassies program. Now, some of them are small issues, 
but then there are bigger ones as well. $1 million for a 
sculpture, one granite sculpture for the Embassy in London that 
turned out to be too heavy for the Embassy itself.
    Who is in charge of that program? What office at State?
    Ms. Higginbottom. The Office of Overseas Building 
Operations is in charge of that program.
    Senator Flake. Is that program ongoing? Is this an ongoing 
program or is this, the Art in Embassy program?
    Ms. Higginbottom. The Arts in Embassy program?
    Senator Flake. Yes.
    Ms. Higginbottom. Yes, that is an ongoing program. The Arts 
in Embassy program receives donated art, largely. The OBO part 
of our budget, the Overseas Building Operations, provides 
resources to outfit our embassies. I would be happy to follow 
up with additional information.
    Senator Flake. I would like that, because these amounts 
that I am hearing are taxpayer funding, $400,000 for a 
sculpture of an albino camel staring in the eye of a needle in 
Pakistan. I mean, sometimes it does not pass the laugh test.
    Ms. Higginbottom. I would be happy to follow up with you.
    Senator Flake. Really, when we are putting amounts off-
budget, and continuing and growing OCO accounts, and we have in 
the base budget some of these programs, to justify that to our 
constituents, the taxpayers, is a bit tough.
    I am all for art. We need beautiful embassies overseas. It 
is our face around the world, and that is fine. But I would 
suggest that some of these programs need to be brought a little 
under control.
    So I appreciate it. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. If I could, would you certify that of all of 
the OCO moneys you are spending, not a single penny of that is 
for ongoing operations? Is that what I just heard you say?
    Ms. Higginbottom. Our requested OCO, there is a distinction 
between how our funding is appropriated. When we are requesting 
OCO, we are making every effort to request funding for 
extraordinary or temporary costs.
    The Chairman. I know you are making efforts. I am just 
asking--I want to move on to the next Senator. I am just 
asking, would you certify to us that every penny of OCO funding 
is only for these contingency operations and not a single penny 
of that is for the kinds of things that would be ongoing 
operations.
    Ms. Higginbottom. That is subjective of what are----
    The Chairman. So the answer is probably no to that. Is that 
correct?
    Ms. Higginbottom. We have several years of OCO funding and 
several billions of dollars. I do not want to certify anything 
before this committee without being certain of it.
    Senator Flake has just written me a letter to look at our 
fiscal year 2013 OCO allocations, which we are doing analysis 
on now, and we are happy to provide that to be able to go into 
that detail.
    The Chairman. I look forward to you pursuing that.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    And thanks, Madam Secretary, for this.
    You will be glad to know that your independent IG yesterday 
assigned his priorities in the same way you did and put 
security of State Department personnel and our operations as 
the first priority.
    Senator King and I were in Beirut, Lebanon, in February 
2014 and visited a memorial on the Embassy compound to all 
those State Department officials who lost their lives. Most 
Americans remember the Marine barracks bombing and the loss of 
lives of military personnel in Lebanon during the 1980s, but 
they are not aware of how many State Department and other U.S. 
allied governmental employees lost their lives as well. So that 
is the appropriate area.
    I want to focus on two parts of the Benghazi 
recommendations dealing with security. The IG testified 
yesterday that there is a study forthcoming that will look at 
all the ARB recommendations after Benghazi and give a progress 
report, and that that might be done within the next couple 
months.
    But two, in particular, that I want to talk about are 
embassy security training and then local guard contracting and 
vetting.
    Embassy security training is encompassed by ARB 17, 
Benghazi ARB 17. The State Department started a study in 2009 
to look at a facility that could be used for training folks, 
especially for high-threat posts. Seventy sites were examined.
    In the summer 2012, before I came into the Senate, the 
State Department made a determination that the best site for 
this was at Fort Pickett in Virginia. That was in the summer of 
2012.
    Within a very few months after that decision was made and 
announced publicly, the attack occurred in Benghazi. The ARB 
recommendation 17 suggested that this facility and this 
training needed to be done. The State Department said yes, and 
we are responding to that by moving forward with the center at 
Ford Pickett.
    In connection with Secretary Kerry's confirmation hearings 
and his first status hearing before the committee, I asked if 
that was the State Department's intent. He told me it was.
    The OMB in the spring of 2013 sort of put a yearlong hiatus 
on the project, to reanalyze the multiyear effort the State 
Department had underway to determine the need for the facility. 
During that time, the State Department chief security witness 
Greg Starr testified before this committee that this was 
important to do and do promptly because lives were obviously at 
stake.
    In April 2014, the administration, the State Department and 
OMB together, decided for a second time that this was, in fact, 
a priority and needed to be done to meet our priority number 
one, keeping our personnel safe.
    The President's 2016 budget has funds proposed in it for 
this mission--7 years after the search began for the facility 
and the need was identified, more than 3 years after the 
decision was announced, nearly 3 years after Benghazi occurred 
and the ARB recommendations indicated that this was necessary.
    I just want to make sure that the State Department--this 
has been going for a very long time--that the State Department 
is still moving forward with this plan to try to keep our 
personnel safe by providing them the training that they need.
    Ms. Higginbottom. Yes, Senator. We are. We are really eager 
to move forward with the construction of the FASTC site at Fort 
Pickett. We want to train all of our foreign affairs personnel 
going to post in this important training. And we are concluding 
the environmental impact statement right now and hope to be 
able to break ground later this spring and get going. It is 
critically important. It is keeping our personnel safe.
    And while the ARB recommended that we have this site and 
that we have this training, and that we train everyone going to 
high-risk posts, we believe we need to train the entire foreign 
affairs community to be prepared, because we are in such a 
complex threat environment.
    Senator Kaine. I mean, it would be wonderful, as much of a 
tragedy as Benghazi was, it would be wonderful to think we 
would not face more. But we have had to evacuate two embassies 
since Benghazi, our Embassy in Libya, obviously, in 2014, and 
more recently in 2015 already the Embassy in Yemen. That is a 
big deal, and it demonstrates the security challenges that are 
not getting easier. They are getting harder.
    The second issue, which is sort of subject to multiple ARB 
recommendations, deals with security at the embassies 
themselves, especially in high-threat posts. We use Marine 
security guards. We use State Department security personnel. 
But there is also a practice of using host government security 
and relying on them, or locally contracted security.
    An OIG report in June 2014 analyzed whether local guard 
vetting processes were being followed. They chose six security 
contractors in high-threat areas, and the OIG concluded that 
not one of the six was fully performing vetting procedures on 
local folks who were hired.
    Obviously, if you read the ARB report, the analysis of the 
Benghazi incident, the local security was very problematic in 
the midst of that horrible thing. They were engaged in a pay 
dispute with the State Department and some of them were kind of 
on a work slowdown, and that might have contributed to some of 
the challenges.
    Talk to us about what the State Department is doing with 
respect to the vetting of local security, how you are choosing 
when to use them as opposed to using U.S. security assets. And 
then when you do choose to use them, what is being done to make 
sure they are appropriately vetted?
    Ms. Higginbottom. Thank you, Senator, very much for the 
question.
    The security profile of a particular post is determined by 
the regional security officer on the ground, by the chief of 
mission, by the Bureau of Diplomatic Security. And it is a 
combination of both our personnel, often a local guard force, 
depending on the threat environment.
    We always engage the host country, and most places have 
good cooperation, to provide protection. That is critical and 
part of how we rate whether a post is high-risk.
    We contract for local guard forces all around the world, 
and it is really important. The provision we are requesting in 
this authorization to contract with the best value, as opposed 
to the lowest cost, it assures that we are getting the right 
type of guards to supplement and complement our security.
    The IG report was important, highlighting some weaknesses 
that we have had in the vetting of those guards, some guards in 
some places. Part of that is the responsibility of our regional 
security officers at post. Part of it was the problem of the 
contractors, the companies themselves.
    So we have taken those recommendations and are improving on 
them. But we do feel as though authority that would allow us to 
work with different contractors could also just this issue.
    In some places, the vetting, there are insufficient records 
and information. We are going to face that in certain 
environments around the world. There are not as good of 
recordkeeping systems in some countries we are operating in. 
That is just something we have to work through and do the best 
job we can. But we feel like this authority could make a big 
difference.
    Senator Kaine. I really hope, as part of the 
reauthorization, the additional authorities to make sure that 
these locally hired security are to be trusted, I hope we 
provide authorities to the State Department they need.
    Thank you to the witness.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. And I want to thank you again, and 
Senator Perdue, and our Deputy Secretary for creating the kind 
of environment that I hope will cause us to be successful. You 
all work very well together, and it is deeply appreciated.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And I thank you and Senator Cardin and Senator Menendez for 
this effort to reauthorize the State Department. I also serve, 
as several of us do, on the Armed Services Committee. I think 
this past year, for the 51st year in a row, we passed an 
authorization for the Department of Defense. Wouldn't it be 
nice if we could count on every year passing an authorization 
for the State Department. And I hope that this will be the 
start of that effort.
    Now, one of the most positive statements about the 
direction of dealing with diplomacy and global affairs I 
thought occurred early in the administration when Secretary 
Gates and Secretary Clinton talked about the importance of 
rebalancing resources and emphasis between Defense and State, 
and the importance of diplomacy in helping to avoid conflicts 
in places.
    So I do think that was an important initiative. I think it 
is one we need to continue.
    One of the things that struck me as Senator Murphy was 
asking about ways to engage in public diplomacy, to improve the 
communications as we are seeking to respond to terrorist and 
other efforts around the world, as Senator Kaine was talking 
about the need to train personnel for security threats, is that 
those are places where we are doing a lot on the defense side 
and we need to do a lot and we are on the diplomatic side.
    But how are you working together to address those kinds of 
joint challenges that the country faces that we should be 
dealing with in a coordinated way?
    Ms. Higginbottom. Thank you very much, Senator.
    Recently, Secretary Carter came to the State Department to 
address our chiefs of mission, when they were here for a 
conference. And he spoke for quite some time about his 
observation of how the relationship over the course of his 
career has changed between State and the Defense Department, 
and to the current moment, where we really are coordinating and 
collaborating in so many places.
    I think about the work we are doing a partnership in 
different places in Africa, some of the security training and 
support that we are providing. There are certain authorities 
that the Department of Defense has that we have concurrence on, 
the Secretary of State has concurrence on, to ensure our 
diplomatic objectives and our Defense Department objectives are 
aligned and coordinated. I think that is critically important.
    And Secretary Gates and Secretary Clinton really laid a 
foundation of partnership that we are seeking to build upon, 
both on the resources side as well as on the authorities and 
the work that we are carrying out.
    So there is a whole host of examples where we are working 
very well together.
    The President proposed the counterterrorism partnership 
fund last year. We have requested it in our budget. Part of 
that is State Department. Most of it is the Defense Department. 
But again, it is working together to say, what are the civilian 
capabilities that the State Department is best suited to lead 
on in partnership with the core functions of DOD?
    I think the leadership of both of our agencies in this 
administration is really committed to that principle.
    Senator Shaheen. That is encouraging to hear. It sort of 
raises the question in my mind, and I support the efforts to 
address security of our embassy personnel because I share the 
belief that all of us here have that they are doing tremendous 
work under very difficult circumstances often, but it makes me 
wonder if we really need a whole new facility to do that 
training, or if we do not have existing facilities someplace 
where we are doing similar training, where we could modify that 
to accommodate the needs of the State Department.
    Ms. Higginbottom. Senator, the Department undertook a 
review, as Senator Kaine said, of many different sites. One 
option that has been discussed is the law enforcement training 
facility in Georgia. Our combined assessment found that we 
would need to build or augment 90 percent of the capabilities 
the State Department needs for its unique training, which is 
not in law enforcement in nature, to do that. And having both 
the capability and the synergies in this region, to get not 
just Foreign Service officers but everyone going to post--that 
includes the intel community, the Defense Department, and 
others--to go through this training.
    So we looked at many different places. I should say, the 
administration looked at many different places and came to the 
conclusion that this was the right answer.
    And we feel strongly that we need to train people. Security 
is a shared responsibility. And we have to equip everyone with 
the tools and resources and training to be safe at post.
    Senator Shaheen. Well, I, certainly, agree with that.
    Let me ask, the inspector general reported that over the 
past 6 years, that contracts worth a total of more than $6 
billion were found to have incomplete records. In some cases, 
files were missing. That increases the risk of fraud and waste 
and abuse. The IG identified contract management as a key 
challenge facing the Department. I know that the Department has 
agreed with that.
    So what do you need in order to be able to improve your 
contract management and actually comply with what the inspector 
general was recommending?
    Ms. Higginbottom. Thank you, Senator. The State 
Department's amount of grants and contracts increased a lot 
with our investments in Iraq and Afghanistan. One of the things 
that we really appreciated in the IG's review is that, in that 
growth, we needed to ensure our systems were sort of up to the 
task of managing that amount of money, and his office has 
pointed out several ways in which we need to do that.
    I think that getting qualified people in contract oversight 
positions and having those responsibilities is always a 
struggle. In Washington, there is a lot of competition for 
those roles.
    Senator Shaheen. Do you have the positions approved to 
allow you to do that? If you could hire qualified people, do 
you have the positions to hire them into?
    Ms. Higginbottom. We have added people. We have added 
positions to do that. I think we could do more with additional 
people and additional resources. But that was one of the 
recommendations, and we have aligned resources there.
    Finding qualified people is important. We have great 
people, but finding more to fill those positions. And training 
and a real understanding of the responsibility is something 
that we have the capability to do but we need resources to 
further develop.
    Senator Shaheen. Well, certainly, I hope that you will be 
successful at that. We have a lot of people come through 
office--I bet everybody on this committee does--who want to 
work for the State Department, who are very idealistic about 
the role of the United States in the world and the difference 
we can make. It seems to me we have a great pool, and if we can 
encourage them to think about their training in a way that 
would allow them to come to work for the Department, that would 
be very important.
    So thank you very much.
    The Chairman. Thank you.
    I know we have a vote that is getting ready to kick off 
here in a second.
    Do especially either of our subcommittee leaders have any 
additional questions?
    Senator Perdue. I am sorry, Mr. Chairman. I just have one 
very brief. I think you can answer this very quickly. I know we 
have to go vote.
    We learned another Washington acronym yesterday, ARB, 
Accountability Review Board. Would you comment on the report 
that over the last 17 years, actually, we have had 12 of these 
ARBs and some 40 percent of the recommendations are repeat? I 
know many of these were not on your watch.
    I do not want to go through a litany of those 40, but in 
your time there, what can you tell us about what you are doing 
now to follow up? I know that these are backward-looking, and I 
know the IG and you are forward-looking and are more concerned 
about that. But are there lessons we can learn from these?
    Ms. Higginbottom. Senator, in terms of the forward-looking 
and backward-looking, one principal responsibility I have is 
oversight of ARB implementation of recommendations, not just 
for the Benghazi ARB, which obviously has been the most recent, 
but those going back further.
    It is true that there are topics that are repeated in terms 
of ARB recommendations, but the security environment and the 
circumstances also change. So increasing the number of 
Diplomatic Security agents, for example, is a repeated 
recommendation. It is not that the numbers didn't increase. It 
is that an additional recommendation to add--we have nearly 
doubled the number of Diplomatic Security agents.
    So some of these we might think of as showing up again not 
because we didn't implement them, but because the circumstances 
require it.
    In other cases, we need sustained implementation and 
oversight. That is why the Deputy Secretary is focused on this. 
Secretary Clinton asked my predecessor to focus on it. I have 
assumed that responsibility and will going forward.
    So some is, circumstances that have changed, and some is 
about leadership and oversight.
    Senator Perdue. Thank you. I also have questions about 
special administrative positions, but I will submit that in 
writing for the written testimony.
    Thank you, Mr. Chairman.
    The Chairman. Go ahead.
    Senator Shaheen. This is not really a question. I just want 
to commend the State Department for your work to improve the 
special immigrant visa program and to address the remaining 
long line of Afghans and Iraqis, although that program is 
almost finished, who are still waiting to get into this 
country, who have risked their own lives to help our men and 
women on the ground in those countries during the conflicts.
    It is a very important program, and I certainly applaud the 
State Department for your efforts.
    Ms. Higginbottom. Thank you, Senator. Thank you for your 
support in helping us get the number of visas that we need to 
meet that demand. We have made a lot of procedural 
improvements, and we are continuing it. We just made another 
one recently, and we owe it to people to administer this 
program well. We appreciate your attention to it, because it 
has helped be better at our responsibilities.
    The Chairman. If I could ask, and Senator Cardin may have a 
question too, since the bell has not quite gotten off, I spent 
most of my life in the private sector and we tried to build our 
companies and their capacity. And one of the greatest things 
was seeing people thrive and then educate their families in 
unique ways, and all of those kinds of things.
    I see these special envoys that get created. And, of 
course, there is no confirmation for most of those, unless they 
are legislatively created, and very few of them are. What 
effect does it have on the culture of the organization, when 
you have professionals who have been there for years, who have 
responsibilities over certain areas, and then all of a sudden 
wafted in out of the blue is some special envoy that is created 
that has a special status? What effect does that have over time 
on the organization itself, when people themselves have trained 
to have those kinds of responsibilities themselves?
    Ms. Higginbottom. Well, the role of those special envoys is 
to supplement the work that we are doing on a regular basis. 
Many of them are to meet specific, discrete issues or missions.
    The special envoy for building the ISIL coalition, for 
example, has a very specific mission. He is working closely 
with our Near Eastern Affairs Bureau. But he is going out and 
getting support around the globe for the coalition efforts.
    When Secretary Kerry came into the State Department, he 
asked us to do a review of special envoys and special offices 
and understand what was a critical mission that still existed, 
where we could reintegrate into the bureaus those functions. 
And we did that. We have taken some functions and normalized 
them. He has asked us to do a regular review of that.
    So we just established one over last summer for Ebola 
response. Now that the disease is in a different place, we have 
regularized that back into the bureaucracy.
    So they do play an important role, and I think it is 
important that, at Secretary Kerry's direction, we are 
regularly reviewing them to ensure the mission and mandate are 
still relevant.
    The Chairman. Do you have anything you want to add before 
closing?
    Senator Cardin. I see Senator Markey is here, so I would 
yield to Senator Markey.
    But let me just say, what Senator Menendez said on 
diversity, there are a lot of us who are very concerned, and we 
would very much appreciate you keeping us informed as to how 
you are making progress in using current tools and looking at 
new tools to improve diversity.
    Ms. Higginbottom. Absolutely. We will do that, Senator.
    The Chairman. Excuse me. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman. Thank you for your 
good work.
    The African continent is home to incredibly challenging 
statistics: 9 U.N. peacekeeping operations; 14.9 million people 
affected by conflict, violence, and human rights abuses. But at 
the same time, there are incredible signs of progress on the 
horizon.
    The number of mobile phone subscriptions in sub-Saharan 
Africa is predicted to rise to 930 million people with cell 
phones by 2019, up from 635 million right now.
    In 2015, sub-Saharan Africa GDP is expected to grow at 4.5 
percent, making it the fastest growing economic zone in the 
world, outpacing Asia, which is 4.3 percent growth this year.
    But you cannot work in a continent like Africa on a 
shoestring budget or with insufficient personnel and expect to 
see positive results. I have been made aware of a recent study 
conducted by the State Department that reveals some important 
and concerning facts about the Africa Bureau's resource level.
    The Africa Bureau completes more assignments than any other 
Bureau. Its staffing level is the second lowest of all the 
regional bureaus, but has the second-highest resource 
requirement for program implementation and policy initiatives. 
This means that they are doing a whole lot more work than most 
bureaus, but with far fewer personnel.
    For example, there are 159 domestic personnel slots for the 
Africa Bureau compared to Europe's 306.
    So in order to meet those many demands, from critical 
elections to emerging crises, the Africa Bureau relies 
extensively on temporary movement of personnel from one 
position to another. For a continent with so many crises and 
opportunities, this staffing pattern prevents genuine 
preparedness to handle challenges as they arise.
    Can you tell me about the Department's plans to review and 
translate the findings of this report into genuine staffing and 
structural improvements for the Africa Bureau's resources?
    Ms. Higginbottom. Thank you, Senator, for the question.
    We commend Assistant Secretary Thomas-Greenfield for 
undertaking this review of her Bureau. The workload that they 
are facing, the numerous crises they are dealing with, they had 
a lot to deal with last year with the Africa Leaders summit, 
not to mention the various global challenges that we are 
dealing with in the region.
    I have met with the Assistant Secretary, as has the Under 
Secretary for Management, and we are working through the 
requests to see how they can be addressed. Obviously, we are in 
a tight budget environment, and we have to look to see how we 
can align resources.
    Just yesterday, in fact, Secretary Kerry invited Assistant 
Secretary Thomas-Greenfield to present her findings to the 
entire senior leadership of the Department, both to show as an 
example of how we should be looking at our operations and 
empowering our assistant secretaries to do that analysis, but 
also to be clear what types of burdens the Bureau is facing.
    So we are taking it very seriously, and we are working 
through those requests.
    Senator Markey. Okay, great.
    In 2011, the State Department expanded its existing Office 
of the Under Secretary for Economic, Energy and Agricultural 
Affairs and replaced it with an Office for the Under Secretary 
for Economic Growth, Energy and Environment. Part of this 
effort was meant to promote and prioritize State's role in 
economic policy development overseas. But the inclusion of 
environmental and energy issues placed more responsibility in 
one sole office over the State Department's separate but 
related work in the three areas.
    I applaud any effort to prioritize the environmental and 
economic issues in our diplomacy. However, I am concerned that 
another administration, one less concerned about issues like 
renewable energy and a clean environment, could easily sweep 
away any policy progress made by having an Under Secretary 
devoted to economic growth, energy and the environment.
    In order to demonstrate our country's enduring commitment 
to these important issues, should we seek to codify the 
creation of an Under Secretary for Economic Growth, Energy and 
the Environment?
    Ms. Higginbottom. Thank you, Senator. The creation of the 
Under Secretary and the emphasis on environmental issues is 
really important. Our Bureau of Environmental Science works on 
a variety of issues across the globe and the region. I think 
that what you would see, regardless of administration, is if 
there are critical environmental issues affecting the countries 
we are engaged with, whether they are mitigating impacts of 
climate change or others, our diplomats and our Foreign Service 
officers are focused on helping countries address those. I do 
not think that will change.
    The system that we have established, the Under Secretariat 
and the Bureaus, have expertise and focus on that. While 
political leadership, of course, changes as administrations 
change, not necessarily the experts who are there carrying out 
that work.
    Senator Markey. Thank you.
    Finally, in reviewing available funding for Africa that 
addresses good governance, it appears that since fiscal year 
2011 to fiscal year 2015, there has been more than a 50-percent 
drop in available funds that deal with issues of good 
governance.
    These funds are used for crucial activities surrounding, 
amongst other things, election preparation. These funds were 
pivotal in U.S. support to the recent successful Nigerian 
elections.
    We hear often that the United States prioritizes the 
promotion of democracy and governance, yet the funds available 
for this critical pursuit are shrinking steadily.
    So could you explain how the United States can continue to 
claim we are prioritizing democracy and governance but have 50 
percent less resources that we are going to dedicate to that 
effort?
    Ms. Higginbottom. Senator, we are very focused on working 
with Congress to try to receive as high a level as possible to 
support those efforts. We think they are critically important. 
They address many priorities we have, particularly on the 
African Continent.
    There are issues that we are working through to ensure that 
there are flexible resources to meet those needs. It is a big 
priority.
    Because we do not have as much as we would like right now, 
I have actually started a group in my office working with our 
budget folks and some of the regional bureaus to figure out how 
we can leverage the dollars we do have to go even further, 
partnering with organizations and with other efforts. So we are 
trying to take the resources we do have and leverage them and 
have them go further. But ultimately, we would like to see a 
higher level appropriated in those accounts.
    Senator Markey. Okay, and thank you for all of your 
efforts.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Deputy Secretary, we thank you for your testimony today. 
You acquitted yourself very well, as always. And we appreciate 
the way you are working with all of our offices toward a good 
end.
    I have no further questions. I think we have a vote.
    Again, we look forward to working closely with you.
    The record will be open through the close of business 
Thursday for people who want to ask additional questions. We 
would just ask that you and your staff answer those promptly.
    And we look forward to a successful authorization. Thank 
you again for being here.
    Ms. Higginbottom. We will do that.
    The Chairman. Without objection, and with the committee's 
approval, we are adjourned.
    [Whereupon, at 11:02 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


    Responses of Deputy Secretary Heather Higginbottom to Questions 
                    Submitted by Senator Bob Corker

    Question. Foreign Service officers receive an assortment of special 
pays, including overseas comparability pay, cost of living adjustments, 
hardship pay, danger pay, priority staffing post incentives, separation 
pay, and education and housing allowances.

  <diamond> Has State completed a comprehensive review recently to 
        ensure that each allowance is achieving the intended purpose, 
        such as addressing staffing gaps, and set at reasonable levels?
  <diamond> How much does the Department spend on these allowances 
        annually?
  <diamond> Does State have an estimate for what percentage of total 
        compensation is comprised of allowances for its employees 
        serving overseas?

    Answer. Allowances and supplemental compensation are available to 
all U.S. Government employees serving overseas, and rates are 
determined by the location and difficulty of the posting. The State 
Department regularly reviews the levels of allowances and recruitment 
and retention incentives to confirm that they are fair and equitable. 
We review data submitted from posts abroad, generally every 2 years, to 
ensure that the allowances are set at the appropriate levels. In 
addition, the impact of exchange rates on the cost of living allowance 
is adjusted every 2 weeks. These reviews are based on survey data 
received from each post, as well as information about each location 
which is available both generally and from other U.S. Government 
agencies. We develop and coordinate policies, regulations, standards, 
and procedures to administer the government-wide allowances and 
recruitment and retention incentives under the Department of State 
Standardized Regulations (DSSR).
    Hardship Differential and COLA achieve their intended purposes 
under Title 5 U.S.C., which is to assist U.S. Government civilian 
employees at foreign locations where conditions of environment differ 
substantially from those in the continental United States or are 
significantly more costly than in Washington, DC. The Danger Pay 
allowance is intended to compensate employees for the serious 
conditions specified in 5 U.S.C. The Department recently completed an 
extensive review of the processes which determine the rates of both 
Danger Pay and Hardship Differentials, and we are currently 
implementing updates and other changes to ensure they continue to 
achieve their intended purpose.
    The Bureau of Human Resources conducted a survey in 2015 to learn 
more about the incentives that compel employees to serve at Priority 
Staffing Posts (PSPs)--Iraq, Afghanistan, Pakistan, Libya, and Yemen. 
The survey, a followup to a 2010 study of hardship incentives, covered 
both monetary and nonmonetary incentives. While respondents indicated 
that multiple R&R breaks, linked assignments, and early handshake 
incentives were part of their decisionmaking process, monetary 
incentives were two of the top three drivers for those who had served 
at a PSP, with Danger Pay being the most influential incentive.
    In FY 2014, the Department spent approximately $268 million for 
recruitment and retention incentives and allowances to support the 
presence of Department personnel overseas. This amount includes: Post 
Allowance (COLA), Post Differential, Danger Pay, Special Differential, 
Language Incentive Pay (LIP), Other Premium Pay Not Otherwise 
Classified (NOC), Physicians Comparability Allowance (PCA), Service 
Needs Differential (SND), and Separate Maintenance Allowances (SMA). 
Please note that not all are paid at all posts, nor are all available 
to all categories of employees. In addition to these amounts, 
$17,845,000 was reimbursed as part of Living Quarters Allowance (LQA). 
LQA is currently approved in full or in part at the following posts: 
all posts in Canada; Bern, Switzerland; Valletta, Malta; Quito, 
Ecuador; Geneva, Switzerland; and Guatemala City, Guatemala. Housing in 
other locations is supported by Department-paid residential leases or 
Government-owned housing. For FY 2014, $150,791,000 was spent through 
the Dependent Education Allowance to provide U.S.-comparable primary 
and secondary education for eligible employee dependents overseas. In 
CY 2014, the Department paid $152,945,000 in Overseas Comparability Pay 
(OCP).
    Excluding Dependent Education Allowances, Living Quarters 
Allowances, and OCP, the overseas recruitment and retention incentives 
and allowances listed above comprise approximately 15 percent of total 
compensation \1\ on an annual basis.
---------------------------------------------------------------------------
    \1\ Total compensation consists of basic pay, including locality 
pay, regular premium pay, Government contributions, as well as the 
recruitment and retention incentives and allowances listed above.

    Question. Advocates of full Overseas Comparability Pay argue that 
its absence could affect diplomatic readiness by increased Foreign 
---------------------------------------------------------------------------
Service officer attrition and recruitment challenges.

  <diamond> What evidence can you provide to support this claim, 
        particularly given that applications to the Foreign Service are 
        at record levels and the Foreign Service has significantly 
        lower attrition rates than Federal Government civilians?

    Answer. Overseas Comparability Pay (OCP) is intended to ensure that 
employees worldwide start at a comparable salary baseline. OCP (just 
like domestic locality pay) is part of each USG employee's base pay. 
Overseas service (required for the FS) without OCP would not only have 
an immediate impact on an employee's take-home pay (resulting in an 
immediate pay cut of just over 16 percent of their base pay and a 
similar amount on all allowances calculated on base pay), but also 
follow them into retirement via reduced contributions to their Thrift 
Savings Plan, which is intended to be an integral and significant part 
of employees' retirement package.
    We compete with other U.S. agencies, international business and 
finance, international organizations, and nongovernment organizations 
for new candidates for the Foreign Service, and for retention of 
existing FS professionals. We all draw from the same limited pool of 
highly qualified candidates interested in careers overseas who are 
willing to endure sometimes difficult and dangerous conditions as well 
as separation from family and friends. The competition can be intense. 
When non-USG entities, particularly international business and finance, 
can quickly adjust pay and benefits to attract and retain top talent, 
it becomes even more difficult to remain competitive.
    Some elements of the Department of Defense and other agencies have 
received full overseas comparability pay (currently 24 percent) since 
2003.
    We are extremely proud of our ability to recruit and retain a 
highly qualified workforce at the Department of State. However, two 
recent surveys indicate this picture would change if OCP were to be 
eliminated or not fully implemented.
    The first, conducted in 2012 by the Department of State in response 
to a 2011 GAO report, indicated that:

  <bullet> More than one-third of officers would consider employment 
        outside the Foreign Service if the Department cannot deliver 
        the final tranche of OCP.
  <bullet> More than half of Foreign Service personnel would be less 
        likely to bid on overseas assignments in the total absence of 
        OCP.

    The second, the 2012 Federal Employee Viewpoint Survey, indicated 
that for more than 60 percent of officers the elimination of OCP would 
deter them from bidding on overseas assignments.

    Question. It is my understanding that State's retention issues with 
regard to millennials is due to a variety of factors, including 
structural issues, but that compensation is not one of them.

    Answer. There is insufficient data currently available to determine 
whether attrition among millennials in the Foreign Service is an issue. 
Given that employees join the Foreign Service at the average age of 31, 
millennials are just beginning to join the Foreign Service workforce in 
significant numbers. The majority of millennials are likely to be in 
entry level positions, where attrition remained under 2 percent in 
2014.
    As the average age for a Civil Service employee is over 40, 
millennials compose a minority of Civil Service employees. Attrition 
levels in the Civil Service over the past 5 years averaged 6.7 percent. 
A more extensive analysis of who leaves the State Department and why is 
planned as part of an ongoing expansion of our attrition analysis tool. 
We closely monitor overall attrition, and the Department-wide exit 
surveys that we will implement later this year will give us more 
specific information on why employees leave State's workforce.

    Question. Defense Secretary Carter has recently announced a major 
effort to modernize the inflexible and antiquated manpower structure of 
the military. What is the State Department doing to overhaul the 
structure of the Foreign and Civil Services to attract and retain the 
current and next generation?

    Answer. Improving recruitment and our work environment is part of 
our mission to attract and retain the best of the current and next 
generation. The Partnership for Public Service named the State 
Department the third-best-large agency to work for. State has ranked 
within the top five agencies for the past 3 years and in the top ten 
for 10 years. Forbes and Statistica.com just named the Department one 
of America's Best Employers for 2015, based on a survey of 20,000 
American workers at large U.S. companies, government agencies, and 
nonprofit institutions; we were the only federal agency in the top 50.
    To promote retention, we offer comprehensive and in-depth long-term 
career guidance and counseling to all Foreign Service personnel 
throughout their career. We are continually expanding the guidance, 
counseling, and development opportunities for our Civil Service 
employees through our Office of Civil Service Human Resource 
Management, Career Development Division. We offer a range of work-life 
programs, a student-loan repayment program, opportunities for both 
Civil Service and Foreign Service employees to rotate into different 
jobs, and opportunities for Civil Service employees to serve overseas 
with Foreign Service colleagues on excursion tours.
    We monitor attrition closely and are expanding our attrition 
reporting tool in coming months. Foreign Service (FS) attrition 
averages about 4 percent per year, with the majority leaving due to 
retirement. The highest attrition rates are at the more senior levels 
as officers and specialists alike reach mandatory age retirement or the 
expiration of time-in-service rules associated with the up-or-out 
system, though both can happen at any grade. Civil Service attrition 
rates are somewhat higher than the Foreign Service, averaging between 6 
and 7 percent per year. Neither FS nor CS attrition rates are out of 
line with the Federal Government average of 5.9 percent (2004-12 GAO 
data).
    We have developed, and are now implementing, a variety of 
standardized electronic exit surveys to improve the information we have 
about the reasons employees leave our workforce. This information will 
be used to isolate and address any retention problem areas and assist 
in recruiting efforts. Our existing monitoring of employee departures, 
and what we are told in letters of resignation, indicate that the 
majority leaving the Foreign Service do so for family and health 
reasons.

    Question. State has the authority to direct the placement of 
Foreign Service officers. However, State does not use this authority, 
and instead induces Foreign Service officers to choose difficult-to-
fill posts with an array of incentives.

  <diamond> What is the opportunity cost of the significant investment 
        of resources necessary to maintain a full presence in 
        challenging locations?
  <diamond> Have you considered directing Foreign Service officers to 
        fill hard-to-fill posts, particularly in frontline states?

    Answer. The Department constantly evaluates our presence around the 
world. Some of the most challenging locations in which we are present 
are also areas of critical national security interest. The Department's 
incentives to encourage volunteers to serve in these areas represent 
important investments to ensure that the Department is able to maintain 
the necessary presence to best support our national security. We are 
prepared to use directed assignments when they are needed. We have thus 
far relied on volunteers to staff our critical needs posts, including 
our Priority Staffing Posts (PSPs) of Iraq, Afghanistan, Pakistan, 
Libya, and Yemen, and have not needed to resort to directed 
assignments. In the small number of hard to fill positions, we have 
been able to fill those slots largely with volunteers. Our Service 
Recognition Packages, which include a mix of monetary and non-monetary 
incentives, together with a desire to serve, are sufficient recruitment 
tools. In our most difficult posts, our experience has shown that 
volunteers are more resilient and better able to perform successfully.

    Question. In your testimony you stated that, ``Foreign Service 
officers deployed overseas have absorbed cuts to their basic pay 
compared to their domestic counterparts.'' When FSOs are assigned to 
Washington DC, they must pay for their housing expenses out of their 
basic pay. However, when FSOs are assigned overseas, they either have 
government-provided housing or are given a living quarters allowance.

  <diamond> How do you justify the need for paying FSOs at the 
        Washington, DC rate, when housing is provided?

    Answer. Overseas Comparability Pay (OCP) is designed to ensure that 
Foreign Service personnel are compensated for their labor overseas at 
the same rate as they are compensated for their labor in Washington, 
DC, like their DOD and other agency colleagues. The provision of 
housing overseas, whether provided by the USG or by a Living Quarters 
Allowance (LQA) is an entirely separate issue. The Living Quarters 
Allowance (LQA), or the provision of government housing while overseas, 
ensures that all U.S. Government employees have housing that meets 
American safety, health, and security standards. Such housing can, in 
many of the world's cities, be priced far beyond the reach of a federal 
employee's salary.
    Allowances are not a zero sum equation. Instead, each type of 
allowance is set up to compensate for a specific type of hardship or 
inequity. Some posts have several allowances because several types of 
hardships or inequities intersect there.

    Question. Much attention has been given to training of peacekeeping 
troops to prevent peacekeeper misconduct, particularly as it relates to 
sexual exploitation and abuse, but significant problems persist.

  <diamond> What aspects of this problem are the most challenging and 
        what steps are we taking at the United Nations to address this 
        problem?

    Answer. The United States is a leading and long-standing proponent 
of efforts to prevent and investigate misconduct by U.N. peacekeepers, 
in particular sexual misconduct, and is a strong supporter of the 
U.N.'s efforts to implement fully its policy of zero tolerance of 
sexual exploitation and abuse (SEA) by any U.N. personnel.
    Outraged in 2002 by allegations of widespread abuses by U.N. 
peacekeepers in West Africa, the United States and other U.N. member 
states demanded action. The United States took the lead in negotiations 
in the Security Council and General Assembly on measures to address 
such abuses, including a revision to the Model Memorandum of 
Understanding with troop and police contributing countries (TCC/PCCs), 
creation of a Victim's Assistance Strategy to provide medical and legal 
help to persons alleging SEA while the allegations are being 
investigated, and updated procedures to address allegations of 
misconduct levied against civilian U.N. peacekeepers.
    Other measures adopted at U.S. initiative or with our strong 
backing include: implementing training for all personnel on standards 
of conduct; establishing conduct and discipline teams in missions to 
publicize procedures to local populations and conduct initial 
investigations; and, placing restrictions on personnel use of local 
facilities, such as bars, where necessary. The work requirements for 
U.N. leaders in peacekeeping missions now include responsibility for 
enforcing the zero-tolerance policy.
    The United States also pressed for published statistics, and 
continues to press for expanded information. Despite the increasing 
demands on U.N. peacekeepers and a near doubling in the number of 
peacekeepers, it is encouraging to note a downward trend in allegations 
of SEA over the last 10 years since the U.N.'s procedures and 
regulations were put in place.
    The Department continues to work with our partners at the United 
Nations to initiate a firm prohibition on payments to governments for 
troops sent home for misconduct, including for sexual exploitation and 
abuse.
    Nevertheless, challenges remain. We would like to see more 
followup, particularly with victims and the local community, on actions 
taken against perpetrators. Unfortunately, the U.N. cannot compel 
member states to report on actions taken. To this end, we are also 
pressing TCCs and PCCs to take action when their personnel are 
repatriated, supporting the Conduct and Discipline Unit and Office of 
Internal Oversight, providing resources where needed to address gaps in 
their ability to oversee or investigate, and encouraging U.S. Embassies 
and NGOs to report on allegations of incidents involving U.N. 
personnel. We are also working with the Secretariat to ensure that 
measures are in place and properly implemented to address allegations 
of misconduct against civilian personnel.
    Finally, supporting the capacity of the U.N. itself to address this 
issue is important to long-term success. The U.N.'s Conduct and 
Discipline Unit (CDU) in the Department of Field Support is responsible 
for overseeing policy and regulations on misconduct. They have a small, 
very dedicated staff. The Department of State is funding an entry-level 
position in CDU, filled by a talented young American, to help with this 
essential work.

    Question. U.N. peacekeeping missions are transitioning away from 
their original purpose of maintaining peace during a political 
transition to a more offensive nature, including with the use of 
special teams of offensive forces. With a veto on the Security Council, 
the United States is responsible for such missions and their 
consequences.

  <diamond> Should the U.N. be entering into conflicts when there is 
        not yet a peace to keep and, if so, under what circumstances?
  <diamond> Are you concerned that such offensive operations may 
        compromise the perception of U.N. neutrality?

    Answer. Historically, many U.N. peacekeeping missions have been 
deployed to facilitate implementation of peace agreements and neutrally 
monitor borders and disputed territories. An increase in intrastate 
war--often brutal and directly affecting civilians--has contributed to 
an increasingly complex international environment over time. The 
Security Council has responded, where appropriate, by mandating U.N. 
peacekeepers to deploy into situations where conflict is not fully 
resolved in order to help create the security conditions needed for a 
political process to take place. The United States supports the use of 
peacekeeping in this way, as it is an investment in a larger process to 
bolster legitimate governmental and nonstate actors and to address 
underlying drivers of conflict. U.N. peacekeeping in and of itself is 
not a solution to war, but it can help to create an environment more 
conducive to a burgeoning peace process. When there is no burgeoning 
peace process, or when a more robust military engagement is 
appropriate, we have supported, on a case-by-case basis, U.N.-mandated 
peace enforcement operations conducted by regional organizations, 
including the African Union.
    In facing new challenges and more complex environments, the U.N. 
also has struggled to remain neutral and effective. After a thorough 
review of U.N. peace operations, the Report of the Panel on United 
Nations Peace Operations (``The Brahimi Report'') concluded that 
impartiality, rather than neutrality, remains a bedrock principle of 
U.N. peacekeeping. The report proposed that impartiality means that a 
peacekeeping mission must adhere ``to the principles of the [U.N.] 
Charter and to the objectives of a mandate that is rooted in those 
Charter principles''--or, in other words, a mission should not, for 
example, ignore clear violations of a peace agreement by any party. A 
mission may use force at the tactical level if acting in self-defense, 
in defense of civilians under threat of physical violence, and in 
defense of the mandate. In certain volatile situations, such as in 
Mali, the eastern Democratic Republic of the Congo, or the Central 
African Republic, U.N. peacekeeping missions have engaged in well-
analyzed, preemptive offensive operations to prevent violence against 
civilians under threat of physical violence. The United States supports 
language in peacekeeping mandates specifying that missions engaged in 
operations offensive in nature should mitigate risks to civilians and 
take into account any potential humanitarian implications.

    Question. How does the State Department ensure that it maintains 
the right international footprint? Wouldn't a zero-based assessment 
similar to the military's Base Realignment and Closure process save a 
lot of money by determining a more efficient footprint?

  <diamond> Have you considered ways to empower the Rightsizing Office? 
        Could a State Authorization be helpful in this area?

    Answer. The Department recently has taken significant steps to 
revamp its rightsizing framework precisely for the purpose of affirming 
an optimal balance in the USG's overseas footprint. That framework aims 
to utilize existing strategic planning documents prepared by the 
missions themselves, and validated by Department bureaus and other USG 
agency headquarters, to analyze and align as closely as possible the 
staffing required to achieve our foreign policy objectives. It includes 
greater emphasis on the security environment of our overseas missions 
and the significant costs associated with sustaining American employees 
abroad.
    Recognizing that chiefs of mission are Presidentially authorized to 
determine the staffing levels at their missions, we also have more 
closely integrated mission strategic objectives, security, and fiscal 
costs into the revised National Security Decision Directive 38 (NSDD-
38) cable that we send to post whenever an agency seeks a change in its 
staffing level at that mission. We do not hesitate to recommend that a 
chief of mission disapprove an agency's staffing request when the 
justification does not appear to align with the mission's strategic 
vision and plans. The Department often recommends that the chief of 
mission offset any position increases by identifying and seeking to 
abolish other positions that contribute less to the goals being sought. 
The Department believes that this process offers a more realistic 
perspective on our needed engagement than the resources and time that 
would be required to undertake a zero-based approach to rightsizing the 
USG presence abroad.
    The Office of Rightsizing, through P.L. 108-447, is already 
empowered to engage the interagency, and its revised framework promises 
to extend the rightsizing mandate in ways that have not always been 
practiced in the past. For example, the Department is engaging agencies 
earlier in the process of rightsizing an overseas mission. We seek to 
include other agencies on rightsizing team visits to larger, 
complicated posts when a site visit is particularly compelling.
    The Department appreciates Congress' support and looks forward to 
working with the committee on an authorization bill.

    Question. Since the beginning of this administration, the number of 
Schedule B hires at the State Department has more than doubled. 
Schedule B hires are intended to be used for temporary subject matter 
experts. They are not intended to circumvent normal hiring procedures.

  <diamond> Please explain the recent large increase and what the 
        Department has done to ensure that it is properly using 
        Schedule B hiring authority.

    Answer. The Department has four specific OPM authorities for 
Schedule B hiring:

  <bullet> Nonpermanent senior-level positions to serve as Science and 
        Technology Advisors to the Secretary.
  <bullet> Positions on the household staff of the President's Guest 
        House, and Blair and Blair-Lee Houses.
  <bullet> Technical experts in the area of arms control, 
        nonproliferation, and verification and compliance, limited to 
        10 percent of FTEs allocated to the Department in support of 
        arms control. The Department is under its authorized cap. This 
        authority can only be exercised by the Secretary or the Under 
        Secretary for Arms Control.
  <bullet> Scientific, professional, and technical positions at grades 
        12 through 15 that can be utilized Department-wide. These 
        positions must be filled by persons with special qualifications 
        in foreign policy matters. Total employment cannot exceed 4 
        years and are subject to approval by the Director General of 
        Foreign Service and Director of Human Resources prior to 
        appointing.

    The Department carefully reviews all Schedule B appointments to 
ensure they are in line with appropriate authorities. Our authorities 
for the first three are capped at one Senior Science and Technology 
Officer, 17 Blair House employees and limited to 10 percent of FTEs in 
the T Bureau. The overall number of Schedule B appointments with 
foreign affairs/technical expertise varies with mission requirements. 
It is currently less than it was even 1 year ago.

    Question. We all agree that our ambassadors should possess the top 
professional qualifications. I understand the American Foreign Service 
Association has provided Guidelines, which build on the Foreign Service 
Act, that are being used to draft the Certificates of Demonstrated 
Competence.

  <diamond> Are these the appropriate guidelines and how are they used?

    Answer. Identifying strong and experienced leaders to serve as 
ambassadors is critical to achieving our foreign policy objectives and 
ensuring the safe, effective management of our missions. Under the 
Foreign Service Act of 1980, Certificates of Competency must be 
presented to the Senate Foreign Relations Committee for each candidate 
nominated by the President to serve as a bilateral Ambassador overseas 
and for the candidates for Ambassador to some international 
organizations. The Department welcomes AFSA's efforts to produce 
guidelines for selection of chiefs of mission.
    Career candidates for chief of mission are expected to demonstrate 
a wide range of qualities and experience, including:

  <bullet> Demonstrated competency in leadership, management, and 
        public diplomacy;
  <bullet> Ability to articulate and coordinate U.S. foreign policy, to 
        promote democracy and rule of law, and to practice economic 
        statecraft;
  <bullet> Effective interagency experience;
  <bullet> Skill in outreach to foreign publics, i.e., beyond 
        governments;
  <bullet> Openness to innovation and constructive change;
  <bullet> Willingness and ability to take smart programmatic risks to 
        advance U.S. interests;
  <bullet> Outstanding interpersonal skills; and
  <bullet> Broad professional experience.

    Question. CSO has been heavily criticized in what are now multiple 
inspector general reports, including in a recent ``compliance followup 
review,'' which found that the Department ``has made progress, but not 
resolved fundamental issues involving the Bureau's mission, the extent 
of its overlap with other bureaus and interagency partners, and staff 
size and organization.''

  <diamond> What is the mission of CSO, why is it necessary, and what 
        is the Department doing to implement the recommendations of the 
        inspector general to ensure it is not duplicating the work of 
        other bureaus and agencies?

    Answer. The Bureau of Conflict and Stabilization Operations (CSO)'s 
mission is to advance the Department of State's understanding of how to 
anticipate, prevent, and respond to violent conflict through high-
quality analysis and planning; ongoing monitoring, evaluation, and 
learning; and targeted in-country efforts that inform U.S. 
policymaking. This mission statement was approved by the Under 
Secretary for Civilian Security, Democracy, and Human Rights (J) and 
submitted to the Office of the Inspector General (OIG) as part of our 
response to their recommendations.
    As one of seven bureaus and offices reporting to the Under 
Secretary for Civilian Security, Democracy, and Human Rights, CSO works 
within the State Department's broader umbrella of civilian security, 
diplomacy, and programming. The Bureau works to improve the 
Department's understanding of conflict and ability to act effectively, 
developing and employing a full range of tools to effectively 
anticipate, prevent, and respond to conflict-related risks; sets 
Department-wide priorities for conflict policy and programs; and 
launches focused operations to address these priorities on the ground.
    In support of the State Department's lead foreign policy role, CSO 
works hand in hand with regional bureaus and embassies to help plan for 
contingencies, identify priorities, and make strategic choices to 
counter destabilizing political violence. CSO monitors the impact of 
conflict-focused efforts, particularly around State's diplomatic, 
security, and political roles, in order to inform decision-making, 
capture lessons, and contribute to effective U.S. Government action in 
these conflict environments. Similarly, CSO undertakes evaluations to 
build the Department's body of knowledge of what does and does not work 
in developing political and security solutions to potential conflict.
    Finally, the Bureau works to improve approaches within State for 
combating the most extreme forms of violence, including mass atrocities 
against civilians and violence caused by extremism. In support of the 
President's Atrocities Prevention Board (APB), the Bureau serves as 
State's Secretariat and works with the interagency, regional bureaus, 
and embassies on earlier identification of countries vulnerable to mass 
violence, better diagnoses of causes, and better alignment of policies 
and programs to address the risk of atrocities. This work brings needed 
resources, expertise, and policy attention to policymakers and 
embassies in at-risk countries.
    With respect to violent extremism, CSO is conducting research and 
analysis on the factors associated with violent extremism, including 
what makes communities more vulnerable to its appeal and how local 
resiliencies against violent extremism can be strengthened. Our aim is 
to help the Department identify areas that are vulnerable to the spread 
of violent extremism and then design and deploy context-specific 
diplomatic and programmatic tools to try to prevent the spread of 
violent extremism into new areas. We are also taking a lead role in 
advancing the Countering Violent Extremism (CVE) Summit, promoting 
research into local drivers of violent extremism and effective 
responses to build an evidence base for future U.S. Government CVE 
programming and to encourage more effective CVE approaches by 
international partners.
    To avoid duplication with comparable roles played by other bureaus 
and agencies such as USAID/Office of Transition Initiatives (OTI) for 
USAID-specific programs and development policy, CSO works closely with 
USAID to share analysis, undertake joint State-USAID assessments and 
plans, and ensure effective division of labor in focused efforts to 
support embassies in conflict zones.
    CSO is undergoing a reorganization, with an anticipated completion 
date of midsummer 2015. As part of this reorganization, CSO is 
developing a new structure to better reflect and integrate bureau 
priorities. The goal is to ensure that CSO has both regional and 
functional offices with conflict analysis, planning, programming, and 
learning expertise more deeply embedded in everything we do. CSO is 
also taking this opportunity to look closely at our staffing numbers 
and structure, identifying where there are unmet needs or gaps, and 
looking for ways to create additional Foreign Service billets.
                                 ______
                                 

    Responses of Deputy Secretary Heather Higginbottom to Questions 
                Submitted by Senator Benjamin L. Cardin

    Question. Under Secretary for Management ``Span of Control'' 
Concerns: Several groups, including the Benghazi Review Board, have 
raised the concern that the Under Secretary for Management has ``span 
of control'' issues and oversees some of the counterbalancing functions 
within the organization (such as budget and procurement) that can 
create conflicts of interest.

  <diamond> What reforms might you recommend Congress consider 
        regarding the M family of bureaus when reauthorizing the State 
        Department to address these concerns?

    Answer. With the current organization of the Management Under 
Secretariat, we do not believe there are either span of control issues 
or potential conflicts of interest.
    The Management Under Secretariat, or ``M family'' is comprised of 
nine bureaus and seven smaller offices that all provide support 
services and the operating platform for the rest of the Department, as 
well staff from several dozen other U.S. Government agencies who are 
assigned to our overseas posts. Services include contracting 
assistance, embassy construction, financial, medical, training, human 
resources, information technology, security, and other support. The M 
family of bureaus and offices work closely together to provide seamless 
support.

  <bullet> The Bureaus of Diplomatic Security (DS) and Overseas 
        Buildings Operations (OBO) collaborate on security standards 
        for new embassy construction and renovations.
  <bullet> The Office of Medical Services (MED) works with the Bureau 
        of Human Resources (HR) on the medical clearance process to 
        determine availability of staff to serve abroad in a variety of 
        environmental conditions. MED provides medical support staff to 
        DS's Mobile Security Deployment teams.
  <bullet> The Department's training facility, the Foreign Service 
        Institute, works closely with HR on the Department's training 
        needs, particularly foreign language skills related to 
        language-designated positions, mandatory leadership training, 
        and onboarding programs for all new hires.
  <bullet> The Bureau of Consular Affairs (CA), a global service 
        enterprise, is mandated with protecting U.S. citizens and 
        facilitating legitimate travel in support of U.S. economic and 
        security interests. CA works collaboratively with multiple 
        bureaus through its Border Security Program to achieve its 
        mission. For example, CA works together with DS both 
        domestically and overseas to protect the integrity of the 
        world's most valuable travel documents--U.S. visas and 
        passports. CA coordinates closely with OBO to ensure capital 
        investments meet the needs of the Department's staff and 
        customers. HR and CA work together to ensure that staffing 
        models are flexible and responsive to changing workloads. CA 
        and the Budget and Planning Office collaborate to ensure the 
        integrity, transparency, and accountability of our revenue 
        collections and funding streams.
  <bullet> During the Department's hiring process managed by HR, the 
        security background checks for all Department hires are 
        performed by DS.
  <bullet> The Bureau of Administration (A) utilizes the Integrated 
        Logistics Management System (ILMS), to operate our global 
        supply chain for over 41,000 users worldwide at 285 posts and 
        over 100 domestic sites. The A Bureau is working with the Chief 
        Information Officer (CIO) to improve data accuracy and 
        streamline logistics business functions across the Department, 
        supporting procurement, transportation, warehouse, diplomatic 
        pouch and mail, and asset management activities.
  <bullet> Many M bureaus work closely with the Bureau of the 
        Comptroller and Global Financial Services (CGFS) center: HR 
        works with CGFS on payroll for over 72,000 American and locally 
        employed staff; and CGFS works with all other M family offices 
        on accounting for and disbursing U.S. obligations in multiple 
        currencies.
  <bullet> The CIO and DS each undertake complementary elements of the 
        Department's cyber security program.

    Keeping these service bureaus in one family allows us to set 
coordinated priorities and resolve issues that could adversely affect 
our platform; splitting these bureaus would be counterproductive. The 
Department appreciates Congress' interest in management issues and 
looks forward to working with the committee on an authorization bill, 
including authorities that we are seeking to facilitate increased 
efficient and effective operations of several M family bureaus.

    Question. FSO Training Capacity: How would you rate our current 
ability to train the new and current FSOs for the challenges presented 
in the current foreign policy arena?

    Answer. Secretary Kerry is determined to set our diplomats up for 
success, so they can help ensure America's success. He has made 
training and education for our workforce a top priority and has driven 
innovation in several critical areas, including content, methodology, 
and accessibility of our training programs. While we are proud of our 
preparation of our foreign affairs corps, there is always more that can 
be done.
    In a resource constrained environment, the most prudent investment 
we can make is in our people. The Department of State recruits some of 
the best talent our country has to offer. We are committed to doing 
everything possible to hone and cultivate the skills of our people so 
they are ready to handle the challenges of our diplomacy, today and 
into the future.

  <bullet> The Foreign Service Institute is now engaged in an intensive 
        effort to modernize both the content and the pedagogy of its 
        training.
  <bullet> FSI has revamped and lengthened flagship programs, such as 
        A-100 orientation for new FSOs, Area Studies, and the 
        Ambassadorial Seminar.
  <bullet> FSI has dramatically expanded virtual training, with live 
        mentored language training, avatar-based training, on-demand 
        DVC training, mixed media leadership training, and regular 
        webinars.
  <bullet> FSI has developed a new immersive and interactive language 
        training program for Diplomatic Security Agents called 
        ``ALERT.'' This task-based, intensive program produces ``street 
        ready'' agents in 12 weeks.
  <bullet> FSI has developed new training programs covering diplomacy 
        in high threat posts, leadership and authority in groups, and 
        the need to innovate in the face of emerging global trends.

    Since 2010, enrollments at FSI have increased 56 percent while 
appropriated funding has decreased 28 percent. In 2015, FSI will 
support almost 180,000 enrollments, with courses ranging from 2 days to 
2 years (for long-term training in super hard languages). To ensure 
that American diplomats remain among the best in the world, FSI will 
maintain its quality at the very highest standards.

    Question. Special Envoys: In your view, what is the role of Special 
Envoys in the Department? Do they fill a critical void? Where have we 
seen major progress on an issue as a result of a Special Envoy?

    Answer. Special Envoys fill temporary positions created to address 
critical foreign policy needs. Some urgent efforts require high-level 
representatives to coordinate immediate and cohesive responses across 
the government and with foreign governments, like the Special 
Presidential Envoy for the Global Coalition Against ISIL. Other 
positions are created for occasional events and filled by people who 
generally work full-time in other positions. For example, our Special 
Representative to the Organization of Eastern Caribbean States is a 
role filled by our Ambassador to Barbados when meetings of the 
Organization of Eastern Caribbean States occur. We regularly evaluate 
the number of Special Envoys. The ad hoc nature that makes these 
positions useful for accomplishing specific and limited foreign policy 
goals means that the number changes often. At the moment, we have 45 
Special Envoys, Ambassadors at Large, Special Advisors, Special 
Coordinators, and other related senior officials. Sixteen of these are 
Special Envoys. These numbers have and will continue to vary widely, 
particularly in what is generally acknowledged as the most complex 
foreign policy environment in recent memory.
    Special Envoys do not duplicate the work of our long-standing 
organizational system; they complement existing staffing and 
leadership, offering unique expertise and perspective to mission 
critical programs and initiatives. An example would include the Ebola 
Response Coordinator, a position created to respond to a sudden crisis, 
but whose work now has been reintegrated into standing State Department 
offices. During the time the position existed, the Ebola Response 
Coordinator helped greatly to harmonize our efforts to aid countries 
stricken by the Ebola virus.

    Question. Anti-Discrimination Efforts: Generally, there has been a 
growth in intolerance and discrimination in Europe that negatively 
impacts our security, economic, and human rights interests in the 
region, exemplified by the recent Paris and Copenhagen tragedies. A 
department-wide foreign policy strategy on antidiscrimination and 
inclusion is needed to bring additional Department resources to address 
the escalation in hate crimes and discrimination we are seeing in 
Europe and elsewhere in the world.

  <diamond> a. What assurances can you provide that a department-wide 
        antidiscrimination and social inclusion strategy is placed on 
        the U.S. foreign policy agenda to complement the existing human 
        rights foreign policy strategies for vulnerable groups, and 
        that special emphasis be placed on implementation of this 
        strategy in Europe in response to the recent Paris and 
        Copenhagen tragedies?
  <diamond> b. Can you provide a report summarizing all of the special 
        initiatives the State Department has for vulnerable communities 
        including personnel and office?
  <diamond> c. While there may be special efforts for engagement with, 
        and protection of, Women and Girls, LGBT, Youth, Disabled, 
        Muslim, Jewish, Religious communities generally, what efforts 
        are there, if any, that focus on racial and ethnic minorities, 
        such as Roma and migrants?
  <diamond> d. Given the Paris and Copenhagen tragedies, what immediate 
        plans are there to assist Jewish communities with security 
        beyond the countering violent extremism efforts?

    Answer. The U.S. Department of State emphasizes the promotion and 
protection of human rights and fundamental freedoms for all individuals 
regardless of their race, ethnicity, national origin, religious belief, 
sexual orientation or gender identity. We support initiatives in an 
array of multilateral institutions and advance this foreign policy 
objective in our bilateral diplomacy and public diplomacy programs.
    The United States takes seriously the need to protect and defend 
vulnerable communities, and the Department provides some reporting on 
efforts made to assist vulnerable persons in the annual Advancing 
Freedom and Democracy Report. We can provide your staff with further 
details on these initiatives and the staff who carry them out at your 
convenience.
    The United States has been at the forefront of efforts in the OSCE 
to condemn and combat all forms of intolerance and discrimination and 
hate crimes, including against persons belonging to religious, ethnic 
and racial minorities, persons 
with disabilities, LGBTI individuals and members of other vulnerable 
groups. We strongly support the work of the High Commissioner on 
National Minorities (HCNM), the Office for Democratic Institutions and 
Human Rights' (ODIHR's) Hate Crimes Unit, the Chairperson's Three 
Tolerance Representatives, and the Contact Point on Roma and Sinti 
Issues. We have worked with ODIHR to strengthen its efforts to ensure 
that the rights and needs of persons with disabilities are more 
systematically taken into account in elections planning and processes. 
In all of these endeavors, we have worked in partnership with, and have 
greatly benefited, from the counsel and ideas of the members of the 
Commission on Security and Cooperation in Europe and its expert staff.
    Combating discrimination against the Roma, Europe's largest and 
most marginalized minority, is a priority human rights issue for the 
State Department in Europe. U.S. embassies across Europe engage with 
Romani communities and work to empower Romani civil society to better 
advocate for their individual human rights and push back against 
discrimination and stereotypes. The State Department speaks out 
publicly against anti-Roma discrimination, rhetoric, and violence and 
presses our European partner governments to systematically address the 
sociopolitical exclusion of the Romani community. Embassies place 
particular attention on school desegregation, preventing extremist 
violence targeting Romani communities, and ending discrimination in 
employment, housing, and health care. Our embassies have leveraged 
public diplomacy initiatives to unite the Romani community and combat 
xenophobia.
    Fighting anti-Semitism is supported at the highest levels. Our 
leaders--including President Obama, Vice President Biden, Secretary of 
State Kerry, U.N. Ambassador Power and OSCE Ambassador Baer--have 
spoken out and worked with our allies to condemn and combat anti-
Semitism worldwide. One of the most effective tools we have been using 
to push back against anti-Semitism is the engagement of our embassies 
and consulates overseas.
    On numerous occasions over the past year, behind-the-scenes efforts 
by our posts have helped enhance security for Jewish communities in 
concrete ways. Our ambassadors and diplomats have brought religious 
leaders together to fight anti-Semitism and other forms of religious 
hatred, and have reached out to reassure Jewish communities that 
fighting anti-Semitism is not only an issue of concern to Jewish 
communities but an issue of human rights that the United States will 
never ignore.
    The U.S. Department of State is committed to combating intolerance 
and xenophobia and bureaus and posts integrate these issues into their 
daily work. For example, every regional bureau has dedicated staff 
focused on crosscutting regional issues, including intolerance and 
discrimination toward minority groups and vulnerable populations. These 
offices work closely with policy leads in the Bureau of Democracy, 
Human Rights and Labor, which also includes the Ambassador at Large for 
International Religious Freedom, the Special Advisor for International 
Disability Rights, the Special Envoy for the Human Rights of LGBTI 
Persons, and the Special Representative for International Labor Rights; 
the Office of Global Women's Issues; the Office of Religion and Global 
Affairs, which includes the Special Representative for Religion and 
Global Affairs, the Special Envoy to Monitor and Combat Anti-Semitism, 
the Special Representative to Muslim Communities, and the Special Envoy 
to the Organization of Islamic Cooperation; and the Special Adviser for 
Global Youth Issues; the Bureau of Population, Refugees and Migration; 
the Bureau of International Organization Affairs; and, the Office to 
Combat and Monitor Trafficking in Persons. Together these offices and 
bureaus work with country desk officers and diplomats at our embassies 
to develop and implement policies and programs to combat hate and fear 
of the other and to protect and assist the vulnerable.
    Finally, some regional bureaus have developed specialized units 
designed to call attention to racial and ethnic inequality, racism, and 
other forms of discrimination, and to integrate those efforts into 
broader bilateral policy efforts and budgetary decisions. For example 
the Bureau of Western Hemisphere Affairs' Race, Ethnicity, and Social 
Inclusion Unit (WHA/RESIU), established in 2010 with support from 
Congress was institutionalized in WHA's Office of Policy, Planning, and 
Coordination (PPC) in September, 2012. RESIU was created to coordinate 
the Action Plans on Racial and Ethnic Equality with Colombia and Brazil 
and related initiatives in the region. Since its creation, RESIU has 
facilitated WHA partnerships with civil society, private sector and the 
governments of Brazil, Colombia to advance equity in access to 
education and justice, and to engage on issues such as environmental 
justice, racial disparities in health, and economic opportunities for 
indigenous and African descendent groups. RESIU coordinated WHA efforts 
with Posts to commemorate the 2011 International Year for People of 
African Descent and is coordinating Department efforts in the Western 
Hemisphere to commemorate the International Decade for People of 
African Descent. WHA is the first regional bureau to design a strategy 
to support the rights of lesbian, gay, bisexual, and transgender (LGBT) 
persons, and the Bureau has also been at the forefront of the promotion 
of gender rights.

    Question. Conflict and Stabilization Operations: The concept of a 
State Department capability to conduct conflict and stabilization 
activities and operations has evolved significantly in recent years; 
the Department's efforts in this area are currently led by the Bureau 
of Conflict and Stabilization Operations (CSO). After a troubling 
inspector general report in 2014, CSO has undergone restructuring and 
notes it will focus on atrocities and conflict prevention activities 
going forward.

  <diamond> a. What is the State Department's vision for the 
        appropriate role of the State Department in managing conflict, 
        from prevention to post-conflict stabilization?
  <diamond> b. How are State Department's actions overseeing 
        stabilization programs substantially different from and not 
        duplicative with the activities of USAID and USAID/OTI in 
        particular?

    Answer. The State Department's approach to conflict involves 
addressing the most damaging forms of violence around the world. As 
laid out in the 2010 Quadrennial Diplomacy and Development Review 
(QDDR) and reinforced in the most recent QDDR, State has adopted crisis 
and conflict prevention and resolution; the promotion of sustainable, 
responsible, and effective security and governance in fragile states; 
and fostering security and reconstruction in the aftermath of conflict 
as a central national security objective and as a core mission for the 
Department. This mission requires that State (and USAID) work to reduce 
or eliminate short, medium, and long-term threats to American security 
and to help create opportunities for governments and their citizens to 
address domestic challenge themselves. It also determined that State 
would lead operations in response to political and security crises and 
conflicts. These efforts are not limited to acute crises but may 
include persistent conflict and instability. As the Department's lead 
bureau for advancing the Department of State's understanding of how to 
anticipate, prevent, and respond to violent conflict, CSO uses analysis 
and planning; monitoring, evaluation, and learning; and targeted, in-
country efforts to inform U.S. Government policymaking. Working with 
the Department's regional bureaus and missions as well as interagency 
and international partners, CSO emphasizes conflict prevention, 
focusing on three priority themes: preventing and responding to mass 
atrocities, preventing violent extremism, and political violence.
    As one of seven bureaus and offices reporting to the Under 
Secretary for Civilian Security, Democracy, and Human Rights, CSO works 
within the State Department's broader umbrella of civilian security 
diplomacy and programming. To avoid duplication with comparable roles 
played by USAID's Office of Transition Initiatives (OTI) for USAID-
specific programs and development policy, CSO works closely with USAID 
to share analysis, undertake joint State-USAID assessments and plans, 
and ensure effective division of labor in focused efforts to support 
embassies in conflict zones.

    Question. Implementation of PSD-10: President Obama released the 
PSD-10 in 2011. PSD-10 mandated the establishment of early warning 
systems.

  <diamond> a. What elements of the directive have been implemented? 
        What has yet to be implemented?
  <diamond> b. What early warning systems to mitigate potential mass 
        atrocities are in place at the State Department and across the 
        agencies?

    Answer. Since the release of PSD-10, the Department of State is 
honing its ability to effectively prevent, mitigate, and respond to 
mass atrocities. A number of elements of the directive have been 
implemented, foremost the establishment of the interagency Atrocities 
Prevention Board (APB). Since the Board first convened in April 2012, 
it has helped oversee several lines of effort, including:

  <bullet> The Intelligence Community's work on the first National 
        Intelligence Estimate on the Global Risk of Mass Atrocities, 
        which was completed in 2013.
  <bullet> The State Department systematically conducts Department-wide 
        reviews of at-risk countries, identifies policy and 
        programmatic opportunities, and makes recommendations to the 
        APB. Where possible, the Department--working with other 
        agencies on the Board--has identified resources and technical 
        expertise to assist embassies in implementing the 
        recommendations.
  <bullet> Thanks to bipartisan legislation signed by the President in 
        2013, which led to the expansion of the War Crimes Rewards 
        Program, the State Department has increased authority to offer 
        financial rewards for information leading to the arrest or 
        conviction of persons indicted by international criminal 
        tribunals for atrocities.
  <bullet> State Department and USAID developed an atrocity assessment 
        framework tool for decisionmakers and field officers to analyze 
        and understand the atrocity risk factors and dynamics that 
        could lead to atrocities. State added new training modules to 
        existing curricula and has built a library of atrocities 
        prevention resources; the library includes a compilation of 
        best practices, a list of U.S. Government-wide training 
        opportunities, information on the 2013-2014 pilot program in 
        Burundi, and a consolidated list of tools to aid embassy staff 
        facing an emerging atrocity threat.
  <bullet> The APB is supporting the refinement and expansion of 
        training opportunities on atrocity prevention for U.S. 
        Government personnel. In line with PSD-10 commitments, USAID 
        recently completed a new online training, which will be 
        required for all USAID technical officers working in high-risk 
        countries, as well as a field guidance manual. The State 
        Department is adding a diplomacy-focused module to this 
        training platform and companion materials to elevate 
        sensitivity to atrocities risks and effective response 
        strategies.
  <bullet> Through the development of an analytical framework, lessons-
        learned reviews can now be systematically conducted following 
        any significant mass atrocity prevention or response. There 
        have been ongoing efforts in a number of early warning 
        countries and we are working on a case study on Central African 
        Republic.
  <bullet> USAID launched a technology challenge to identify innovative 
        uses of technology in the service of atrocity prevention and a 
        new online training platform.

    Elements that are ongoing priorities include:

  <diamond> State and USAID are developing programs aimed at capacity-
        building in countries that have endured mass atrocities to 
        bring perpetrators to justice in their own courts.
  <diamond> Addressing atrocity prevention and response activities in 
        the State Department's strategic planning processes, with 
        appropriate emphasis given to countries deemed priorities by 
        the Board.

    To identify emerging risks, the APB relies upon a range of 
resources to identify countries at different levels of risk and assess 
opportunities for impact. The National Intelligence Estimate on the 
Global Risk of Mass Atrocities (and Prospects for International 
Response), completed in 2013, provides a rigorous analytical framework 
that is helping the Board anticipate and prepare for mass atrocities in 
the coming years. The monthly APB meeting provides an interagency forum 
for discussing at-risk countries, and the Board is able to share 
concerns and raise awareness through appropriate channels of 
government. Outside the U.S. Government, the Board now conducts 
quarterly meetings with the NGOs and engages them to raise awareness 
and generate international exposure for abuses that are tied to 
potential triggers for mass atrocities.

    Question. Safe from the Start Initiative: The Bureau of Population, 
Refugees and Migration leadership committed to implementing the Safe 
from Start initiative and other gender-based violence prevention 
efforts in its programming. And, yet, huge GBV-related problems persist 
in PRM-funded programs at the POC sites in South Sudan and in camps in 
and across Africa and the Middle East.

  <diamond> What specific steps is PRM taking to address this 
        escalating problem in South Sudan but also across Africa and 
        the Middle East?

    Answer. The Bureau of Population, Refugees, and Migration is 
committed to helping to address the global pandemic of gender-based 
violence (GBV) in humanitarian emergencies. We understand how high the 
stakes are for women and girls--these issues can be a matter of life 
and death and are always life-altering. Addressing GBV is a challenge 
given its pervasiveness, particularly in complex humanitarian 
emergencies. Despite increased financial and political momentum, not 
enough progress has been made to address GBV from the earliest stages 
of emergencies. The United States assumed leadership of the Call to 
Action on Protection from Gender-based Violence in Emergencies 
(launched by the U.K. in 2013). The United States is working with 
leading humanitarians--including concerned states, donor governments, 
nongovernmental organizations, and international organizations--to 
formulate a set of priorities that can serve as a roadmap for moving 
the humanitarian community forward. This will include establishing 
clear milestones and indicators to promote accountability and measure 
the progress of GBV programs. The roadmap is expected to be launched 
this fall. The ultimate goal of the Call to Action is to reduce the 
prevalence of GBV, as well as to respond to the needs of survivors.
    U.S. commitments to the Call to Action includes programming for 
Safe from the Start. Under Safe from the Start, we seek to build the 
capacity of aid workers to better prevent and respond to gender-based 
violence (GBV) at the very onset of humanitarian emergencies, including 
in response to the situation in South Sudan. PRM has supported work 
undertaken by UNHCR, for example, through funding to train UNHCR staff 
on GBV prevention and response. We also fund deployments of Senior 
Protection GBV Officers for up to 6 months to countries in need of 
expert support. To date, UNHCR Protection Officers have been deployed 
to Erbil, Iraq; Gambella, Ethiopia; Batouri, Cameroon; Cairo, Egypt; 
Kabul, Afghanistan; and Adjoumani, Uganda. These positions have helped 
to supplement UNHCR country office staff and partners to conduct 
assessments and ensure that GBV programs are established from the 
outset. In response to the South Sudan situation, through Safe from the 
Start, PRM is supporting several UNHCR efforts in Uganda: the 
deployment of a Senior GBV Protection Officer; population-based 
research examining the impact of UNHCR's child protection system on the 
well-being of South Sudanese refugee children and adolescents; and a 
number of community-based protection activities designed to prevent 
GBV, including installation of solar lights, community sensitization, 
establishment of community watch groups, and training of Ugandan law 
enforcement. In South Sudan, PRM funding supports UNHCR's efforts to 
prevent and respond to GBV among internally displaced populations, 
including in the Protection of Civilian (POC) sites--particularly in 
the clinical management of rape and other life-saving activities; 
training of health care providers; strengthening referral systems; and 
awareness-raising within communities.
    PRM has supported ICRC's work on addressing sexual violence through 
its new 3-year institutional Strategy on Sexual Violence, which is at 
an initial stage of implementation in South Sudan. Three assessments 
were completed in 2013 and 2014. Based on these assessments, ICRC will 
develop a response to sexual violence in the country, in collaboration 
with the South Sudanese authorities. Current ICRC sexual violence 
activities in South Sudan include sensitization and training of 
midwives and traditional birth attendants (TBAs), medical treatment for 
survivors of sexual violence in ICRC-supported health care structures, 
and efforts to prevent sexual violence for example through locating 
latrines in safe areas and separation of men and women in food 
distribution lines to ensure that women are receiving adequate food 
rations. An ICRC psychosocial expert has also recently been deployed to 
Nairobi to strengthen ICRC's response to sexual violence in the region. 
ICRC also trains state and nonstate armed actors on international 
humanitarian law (IHL) and international human rights law (IHRL) in 
South Sudan, and has specific sessions on conflict-related sexual 
violence.
    PRM is also supporting discreet NGO projects through Safe from the 
Start in response to current emergencies in Ethiopia (South Sudanese 
refugees), Chad (for Central African refugees and Chadian returnees), 
Lebanon and Iraq (Syrian refugees), and Uganda (South Sudanese 
refugees). This year, PRM plans to continue support for NGO, UNHCR, and 
ICRC efforts, as well as begin funding UNFPA and IOM to build their 
capacity to prevent and respond to GBV.
    PRM's goal is to ensure that women and girls are never needlessly 
at risk in emergencies and that survivors receive appropriate care--not 
as an afterthought, but as standard practice. Making this happen will 
require a long-term commitment from not just the United States, but all 
concerned.

    Question. Fortress Embassies: Many have used the term ``fortress 
Embassy'' to describe our current diplomatic posture in challenging 
locales. We want to be sure we do everything we can to protect our 
diplomats and their families while balancing their own desire--and our 
Nation's need--to ``get out among the communities'' and discuss issues, 
understand concerns, and affect global opinions. To undertake 
diplomacy, staff--beyond the Ambassador--must be able to get outside 
the walls.

  <diamond> What changes would you recommend to ensure we strike the 
        correct balance in protection of our diplomats and development 
        professionals while also enabling them to do their job on 
        behalf of the American people?

    Answer. We have made several significant security policy 
improvements over the past few years, to protect our staff while 
allowing them to operate in higher threat environments. The Department 
instituted two new Department policies: the High Threat Post Review 
Board and the Vital Presence Validation Process. Through the Vital 
Presence Validation Process (VP2), the Department is able to weigh our 
national security interests and policy priorities against evolving 
security threats. The Department is able to manage risk by balancing 
threats, applying appropriate mitigating measures, and implementing 
quality security programs so that the Department can carry out our 
national security interests.
    One of the core components of the Department's risk management plan 
for high risk posts is the High Threat Post Review Board, which is 
chaired by the Assistant Secretary of Diplomatic Security. The Board 
quantitatively and rigorously assesses the threat environment to 
identify posts around the world that are high threat, high risk. This 
is not a static process and as emergent conditions change, for better 
or worse, at any post worldwide, designations will shift and posts may 
be added or deleted from the high-threat, high-risk designation.
    Carrying out American foreign policy requires first-hand engagement 
beyond our secure facilities and enabling our diplomats to move safely 
``outside the wire.'' Our security is based on a systematic approach 
using concentric rings of security consisting of host government 
resources combined with strong physical security programs in addition 
to chief of mission security personnel and assets. In order to protect 
our people and our missions, we constantly assess our security posture 
to reflect rapidly changing environments and potential threats they may 
present.
    The Department has been taking a number of measures, in some cases 
at an extraordinary level to provide the protection necessary for these 
movements to go forward including:

  <bullet> Well trained, supervised, and armed security professionals 
        experienced in providing protective security in harsh, 
        nonpermissive environments;
  <bullet> Fielding highly advanced armored vehicles combined with 
        continuing research to meet constantly evolving terrorist 
        tactics, techniques and procedures;
  <bullet> Sophisticated and secure communications, electronic 
        countermeasures, and sophisticated tracking devices; and
  <bullet> Integrating strong and timely tactical intelligence into 
        planning for moves.

    The Department continues to bolster security at certain high-
threat, high-risk posts by enhancing the professional capabilities of 
host nation security forces assigned to directly respond to emergencies 
at our diplomatic facilities overseas through the Special Program for 
Embassy Augmentation and Response (SPEAR).
    We must also acknowledge the inherent risk of carrying out 
diplomacy in certain places. For that reason, and after a careful 
assessment of the threat and all available intelligence and 
information, recommending that moves be limited or suspended at a 
particular location will always remain one of the Department's options 
to exercise when necessary.
    We remain committed to ensuring the safe and effective conduct of 
foreign policy.

    Question. Foreign Service participation in risk-reward decisions: 
It is part of AFSA's job, as the sole bargaining unit for the Foreign 
Service, to participate in decisions that affect the safety, and 
financial and general well-being of their members. For that reason, 
AFSA has requested that their post representatives participate in the 
Emergency Action Committees at each post. This would allow the AFSA 
post representative--an employee with a top secret security clearance--
to represent the concerns of rank and file employees that may not 
percolate up through an Embassy's hierarchical structure. AFSA's 
participation is an employee safeguard that ensures proper procedures 
are being followed.

  <diamond> Can the AFSA Post Representative be included in EAC as part 
        of the Department's new proposed risk-reward system (the Vital 
        Presence Validation Process) or the role of the Emergency 
        Action Committee?

    Answer. The Department values AFSA's views on ways we can better 
serve Foreign Service (FS) employees and their families, but, based on 
AFSA's role as the employee association to enhance the professionalism 
of the FS and as a bargaining agent, it is inappropriate for AFSA 
representatives to play a role in the Vital Presence Validation Process 
(VP2) or in the Emergency Action Committee (EAC).
    First, under 22 U.S. code Sec. 2651a, the Secretary of State is 
responsible for administering, coordinating, and directing the Foreign 
Service of the United States and the personnel of the Department of 
State. Further, under the Diplomatic Security Act, it is the 
responsibility of the Secretary to develop and implement security 
policies and programs at all U.S. Government missions abroad (other 
than those subject to the control of a U.S. military commander). The 
Assistant Secretary for Diplomatic Security assists the Secretary in 
formulating security programs worldwide and continuously monitoring the 
threat situation in dangerous locations.
    The Vital Presence Validation Process (VP2) and the Emergency 
Action Committee (EAC) are distinct processes that serve different 
purposes. VP2 is first and foremost a policy process, while the 
decisions taken at Emergency Action Committee meetings are action 
items.
    VP2 was designed to support strategic decisionmaking regarding the 
overarching diplomatic presence in high-threat, high-risk (HTHR) 
locations. For each HTHR post, we conduct a policy analysis outlining 
core national interests, risks, risk mitigation options, and resource 
constraints in order to determine whether it is in the United States 
best interest to continue or restart operations. We do not address the 
conditions of work, recruitment, or other tactical or operational 
issues. A VP2 analysis articulates that the Department has developed a 
defined, attainable, and prioritized mission based on U.S. national 
interests; undertaken an assessment of the risk and resources needed to 
mitigate risk to the maximum extent possible; explicitly accepted those 
risks that cannot be mitigated; developed recommended conditions for 
the U.S. Government presence in this location, including an 
identification of residual risk and highlighting any gaps; weighed the 
needs of U.S. policy against the risks facing U.S. personnel; and 
considered whether adjustments to the U.S. presence must be made. 
Determining how and where the U.S. conducts diplomacy and development 
overseas, must continue to be decided at the highest levels of the 
Department and administration.
    A post's EAC is a group of subject-matter experts appointed by the 
chief of mission, and is generally comprised of section heads and all 
U.S. agencies represented at post. An EAC is charged with preparing for 
and responding to threats, emergencies, and other crises at post or 
against other U.S. interests. The Department's Foreign Affairs Handbook 
policy states that certain programs, such as a post's security 
policies, are inappropriate for AFSA post representatives to discuss 
and thus may not be raised.
    However, no policy is made in a vacuum. The VP2 policy process is 
driven by informational input and recommendations from career Foreign 
and Civil Service and other employees at HTHR posts, as well as in 
Washington, as a part of their official position duties. Likewise, an 
EAC is made up of career employees. The officials involved all have in 
common their concern for the safety and security of their colleagues 
who serve abroad, as well as a policy and operational responsibility to 
objectively weigh the perils of operating in high-risk environments 
with our national security needs as a nation.
    The State Department has a proud tradition of sheltering and 
respecting policy disagreements through official channels. Should 
employees disagree with policy decisions related to a VP2 analysis or 
an EAC operational decision, employees may raise concerns via the 
Dissent Channel, as they could with any other policy challenge.

    Question. Assignments rules and management of language workforce: 
OIG and GAO have previously found fault with the State Department's 
management of its language workforce. AFSA also drew attention to these 
systemic issues in its Section 326 report on the ``State of the Foreign 
Service Workforce'' that the Department submitted to Congress.

  <diamond> How is State Department working to ensure it is using 
        existing language capacity to the greatest extent without 
        having to resort to expensive language training when there are 
        bidders on positions who are well qualified and already have 
        the requisite language skills?

    Answer. The Department strives to assign the right people to the 
right jobs as well as to promote professional development. In making 
assignment decisions, the Department considers employees' 
qualifications, previous relevant experience, regional and functional 
expertise, interpersonal skills, and language ability (or time required 
for language acquisition) against the job requirements in order to 
place employees into assignments for which they are most qualified.
    Employees are asked to plan their careers around a series of 
training and assignment milestones calculated to develop the essential 
skills of a Foreign Service professional. One of those core 
requirements is either the development of, or expansion of, language 
capability. In many cases, an employee with existing language skills is 
assigned into a position over someone with little or no language skills 
due to urgent staffing needs overseas.
    Employees with language ability can pursue positions for which they 
are qualified outside their normal assignments cycle, enabling them to 
bid well ahead of when they would normally seek an assignment. This 
rewards those with existing language talent, and capitalizes on the 
training dollars already spent, especially for those with languages 
that take 1-2 years to reach proficiency. While extremely important, 
foreign language skills are only one of several skills needed to 
successfully fulfill an assignment. For example, a particular position 
may also require an employee with expertise in trade negotiations or 
press relations.
    As an organization, we must continue to expand the pool of 
language-qualified officers so that we build upon the diversity of 
skillsets needed to meet foreign policy goals.

    Question. Pickering Fellowship: The State Department has reduced 
the number of the undergraduate fellows of the Pickering Fellowship.

  <diamond> What was the reasoning for this decision? What impact will 
        this have in terms of diversity recruitment by the Department 
        of State? Can you share with the committee the review 
        (including data and numbers) that went into making this 
        decision?

    Answer. In 2013, the Department completed a programmatic review of 
the Pickering and Rangel fellowship grants, coinciding with the 20th 
and 10th anniversaries of these respective programs. The key findings 
and recommendations of the review primarily affect retention rather 
than recruitment. Recruiting diversity is not enough. We must work to 
retain our diverse talent, which is why the Department undertook an in 
depth review of the statistics and challenges to the programs. The 
resulting recommendation was that we maintain the same overall number 
of fellows but shift to ``all-graduate'' Pickering and Rangel programs.
    The two most compelling factors considered in the Department's 
decision to realign the Pickering undergraduate program were retention 
rates and program withdrawals prior to joining the Foreign Service. 
Retention rates and program withdrawals directly affect the 
Department's return on its investment and our ability to maintain a 
diverse workforce. In all assessed categories, graduate fellows 
outperformed undergraduate fellows. A statistical review of the 
Pickering graduate and undergraduate fellowships showed that after 4 
years in the Foreign Service, retention rates among graduate cohorts 
are 24 percent higher than undergraduate cohorts. This percentage is 
consistent for the entire span of the program from 1992 to present. 
Projected retention rates are expected to continue to favor graduate 
fellows.
    A statistical analysis of Pickering Fellows who withdrew from the 
program before entering the Foreign Service shows that graduate fellows 
withdrew at a rate of 1 percent, compared with the undergraduate 
withdrawal rate of 6 percent, over the life of the programs. 
Additionally, in responding to our survey as part of the 2013 
programmatic review, undergraduate Pickering Fellows themselves stated 
that committing to a career in the FS at the undergraduate level was 
too early and influenced their decision to leave the Foreign Service.
    Although the initial recommendation was to eliminate the Pickering 
Undergraduate Program entirely, the Department decided to maintain the 
program at a reduced level in order to continue engagement at the 
undergraduate level At the same time, the Department decided to 
maintain the overall number of Pickering and Rangel fellowships. Though 
it varies, historically this has meant 60 new fellows per year. The 
newly realigned programs now stand at 20 Pickering Graduate Fellows, 10 
Pickering Undergraduate Fellows, and 30 Rangel Fellows.
    For the sake of parity and fairness, the 2013 review also 
recommended that the Department establish parity between both grantees 
with respect to the number of fellows for each grant and the amount of 
the financial award each fellow receives, which were previously 
different. The 60 fellowship slots were divided equally between the 
Pickering and Rangel grants at 30 fellows per grant, and financial 
awards to all fellows were made equal.
    The Department recognizes the long-term impact of these programs on 
the diversity of the Foreign Service and remains fully committed to 
investing in their success even in a time of constrained budgets. The 
2013 review and our implementation of resulting recommendations reflect 
this commitment.

    Question. Areas of Improvement for Recruitment and Retention: 
During the hearing--you outlined several places the State Department 
could do better in terms of recruitment and retention of diversity 
candidates.

  <diamond> What are the steps you and State Department can take? What 
        steps is the Department of State taking in order to analyze and 
        implement its findings?

    Answer. The Department is committed to recruiting and retaining a 
diverse, talented workforce that advances U.S. values, interests, and 
goals around the world. As part of our efforts to achieve an ever 
stronger, more agile, more flexible, and more innovative workforce, we 
closely monitor recruitment and retention in the Foreign Service and 
Civil Service. Our employees in both the Foreign and Civil Service, as 
a result of responses to OPM's annual Employee Viewpoint Survey, have 
kept the Department ranked highly in the Partnership for Public 
Service's Best Places to Work in the Federal Government ranking, 
including our ranking number three out of all large agencies in 2014. 
We have been in the top three large agencies for the last 3 years and 
in the top 10 since 2005, indicating not only that we have reason to be 
proud, but that we continue to improve.
    While there is more work to do, we have numerous efforts in place 
to continue recruiting a diverse, 21st-century workforce. Diplomats in 
Residence (DIRs), based at colleges and universities across the 
country, are dedicated to recruiting qualified applicants from all 
backgrounds. We are also expanding our outreach to high schools; data 
shows that cultivating students during those formative years generates 
future qualified applicants with a passion for diplomacy and foreign 
policy. The Department-funded Rangel and Pickering Fellowship programs 
are a tool the Department uses to reach out to a diverse pool of 
candidates and as a result, diversity in the Foreign Service has 
increased by 21 percent in the last 20 years. We also work with 
affinity groups and professional associations to reach out to their 
communities, and we maintain a strong social media engagement program.
    The United States Foreign Service Internship Program (USFSIP), a 
paid internship program, stands as an important complement to, and 
potential feeder for, the Pickering and Rangel fellowships. In 2014, 
there were 16 USFSIP interns, and this number will rise to 21 this 
year. DIRs' recruitment outreach and the partnerships they develop with 
academic institutions connect us with different pools of diverse, 
qualified applicants. One USFSIP intern from the first cohort was 
selected this year for a Rangel fellowship, and another made it 
successfully through the selection process as a Diplomatic Security 
Special Agent. Two-thirds of the initial cohort took and passed the 
written Foreign Service Officers' Test. USFSIP currently covers only 21 
students and to expand the program the Department would need to fully 
fund additional intern-related expenses, to include additional FTEs to 
administer the program.
    In FY 2016, the Department is partnering with Don Bosco Cristo Rey 
High School to host 4 to 8 high school interns to encourage them to 
consider a career with the Department. Don Bosco Cristo Rey High School 
offers a unique work study program that provides opportunities for 
underrepresented and financially disadvantaged students to gain work 
experience in a ``real world'' setting while helping to defray a 
portion of their tuition costs. The program shares one job between a 
cohort of four students at a time; each student works 1 day per week at 
the same location during his/her regular academic year.
    We monitor attrition closely. The data in our quarterly attrition 
reports show that Foreign Service (FS) attrition has remained 
consistently low, averaging about 4 percent per year, with the majority 
leaving due to retirement. The highest attrition rates are at the more 
senior levels as officers and specialists alike reach mandatory 
retirement age or the expiration of time-in-service rules associated 
with the up-or-out system, though both can happen at any grade.
    Civil Service attrition rates are somewhat higher than the Foreign 
Service, yet still within a healthy tolerance, averaging between 6 and 
7 percent per year. Neither FS nor CS attrition rates are out of line 
with the federal government average of 5.9 percent (2012 data, the most 
recent available).
    The Department recognizes the need to more systematically track the 
reasons why diverse employees leave its workforce. For this reason, we 
have developed, a variety of standardized electronic exit surveys that 
will go live later this year and which we will link to demographic data 
of the respondent. This information will be used to address any 
retention problem areas and assist in recruiting efforts. Our existing 
monitoring of employee departures, and what we are told in letters of 
resignation, indicate that the majority leaving the Foreign Service do 
so for family reasons.

    Question. Senior Career Level Officer Diversity: What diversity 
programs specifically target the promotion of mid-level career officers 
into senior-level positions?

    Answer. Selection Boards reflect the full diversity of the Foreign 
Service as part of our commitment to ensuring that all aspects of the 
promotion process reflect the values of our institution, and one of 
those values is diversity. The Office of Continuity Counseling provides 
comprehensive and in-depth long-term career guidance and counseling to 
all Foreign Service personnel, which includes a focus on those from 
minority backgrounds. We also provide Senior Leadership Liaisons to 
mentor members of our Employee Affinity Groups, most of which are 
diversity-based.
    To improve diversity in the Senior Executive Service (SES), we are 
reaching out to targeted communities, working with individual bureaus 
to develop outreach plans, and improving guidance on SES application 
and selection provided to the workforce through our Executive Diversity 
Outreach/Program Manager. We are analyzing SES applicant flow data to 
identify any barriers to diversity in SES recruiting. Early analysis 
shows that by percentage, SES diversity increased overall from 6.1 
percent in FY 2012, to 9.1 percent FY 2013, and 10.6 percent in FY 
2014.
    We have also amended our SES Merit Staffing Policy and Processes to 
include mandatory interviews for all referred applicant and 
justifications for selections as well as nonselections. Our 
qualification review panels reflect the full range of our employees' 
backgrounds.
    Finally, the Diversity Governance Council, consisting of high-level 
Department officials, applies a diversity lens to the development and 
implementation of Department management policies and initiatives.

    Question. Foreign Service Exam Procedures: During the testimony you 
mentioned changes in exam procedures. Can you clarify which procedures 
were changed and what impact have they had in diversity recruitment?

    Answer. The Foreign Service Employment Selection Process is 
comprised of three parts: the written Foreign Service Officer Test 
(FSOT), the Qualifications Evaluations Panel (QEP), and the Foreign 
Service Oral Assessment (FSOA). Each component assesses a different set 
of skills and abilities. The FSOT measures cognitive skills; the QEP 
provides educational background and work experience; the FSOA assesses 
the 13 dimensions necessary for a successful career in the Foreign 
Service. In 2007, the Staff of the Board of Examiners completely 
redesigned the Foreign Service assessment process as the result of a 
study conducted by the McKinsey Group, significantly increasing the 
number of minorities passing the FSOT and FSOA.
    Prior to 2007, the assessment process consisted of a Foreign 
Service Written Exam (FSWE) and the Oral Assessment. Candidates were 
selected to proceed to the Oral Assessment based on their FSWE scores. 
Minorities have historically had lower pass rates on written tests such 
as the FSOT than nonminority candidates. Since the FSWE controlled the 
flow of candidates to the FSOA, minority pass rates were proportionally 
lower than the rates of white males.
    Beginning in 2007, the Department set a cut score that, combined 
with the written essay score, allows the Board to invite a different 
mix of candidates to the next stage, the QEP. This allowed a more 
heterogeneous mix of candidates to advance to the next two stages (QEP 
and FSOA) with little or no adverse impact on the quality of the 
candidates themselves. As a result, the minority pass rate and the 
passing rate for women has increased. From 2000-2006, the African 
American pass rate of the FSWE was 5.9 percent; from 2007-14, the FSOT 
pass rate was18.4 percent. From 2000-06, the Hispanic pass rate of the 
FSWE was 11.5; from 2007-14, the FSOT pass rate was 29.1.
    The QEP gives the Board the opportunity to take a good look at 
strong candidates we might otherwise miss, and search for valuable 
personal traits and experience that would not have been taken into 
account previously in deciding whom to invite to the oral assessment. 
The QEP shows no adverse impact against any of the minority subgroups, 
and often minorities are selected at higher rates than nonminorities. 
Women, in particular, have done well on both the QEP and oral 
assessment portions of the assessment, and their greater pass rate in 
these areas more than offsets their slightly lower pass rate in the 
FSOT.
    Among other changes recommended by the McKinsey Group, the Board 
implemented a ``total candidate'' or resume-based approach as one of 
the best practices of the private sector, and the most effective way to 
identify the strongest candidates by including a review of their 
educational background and work experience. To do this, the 
Qualifications Evaluations Panel reviews the files of every successful 
FSOT candidate. These files contain the candidate's application/resume 
and six personal narratives keyed to the FS promotion precepts. The 
candidates are scored and rank ordered on a register. The staff 
director then establishes the number, based on projected hiring needs, 
of those who will be invited to the third and final component, the oral 
assessment. Since the QEP is identifying stronger, more qualified 
candidates all around, the pass rates in the oral assessment for all 
candidates, including minorities, has increased as well. The African 
American pass rate increased from 29.5 percent in 2000-6 to 32.0 
percent in 2007-14. The Hispanic pass rate increased during the same 
time periods from 19.7 percent to 31.0 percent.
    Percentage of hires of African Americans and Hispanics reached a 
high in 2013 with both groups over 10 percent. This was also the first 
year that the percentage of hires (10%) roughly matched the percentage 
of minority applicants for African Americans and Hispanics, as well as 
Asians. As noted above, women perform almost as well as men on the FSOT 
but in general have higher passing rates than men on the QEP and FSOA, 
which serves to increase their percentage pass rate at the end of the 
entire process. In FY14 the percentages went down to 7 percent for 
Hispanic hires, 8.3 percent for African-American hires, and 12.4 
percent for Asian hires. Women were 42.6 percent of all hires, but only 
37.2 percent of all applicants. Fluctuations in hiring of minorities 
over the past 3 years have occurred for various reasons: improved 
economic environment which impacts the number of total applications for 
the Foreign Service, lower hiring numbers for the Department, and the 
number of Pickering and Rangel fellows hired in any given year as these 
are not always consistent. In 2013, we hired 74 Pickering and Rangel 
fellows, in 2014 we hired 51, and in 2015 we will hire 66. In 2015, we 
are on track to hire at least 10 percent Hispanics. This is a 3 percent 
increase over 2014 hiring numbers.
    The Board of Examiners takes many pro-active measures to guard 
against bias and ensure that the process is fair and transparent. All 
assessors who administer the oral exam receive a week of mandatory 
training, with a special emphasis on how to mitigate for personal bias. 
The Board makes extensive efforts to ensure gender and diversity 
representation on the assessment panels. An Industrial/Organizational 
Psychologist reviews, conducts analyses, provides recommendations, 
assists in drafting assessment materials, and validates the testing 
process to ensure compliance with legal and professional testing 
guidelines and the Foreign Service Act of 1980. The Board of Examiners, 
comprised of the Director General, five public members (all I/O 
Psychologists), and representatives from the other foreign affairs 
agencies meet annually to review hiring procedures and outcomes to 
monitor and mitigate for adverse impact.
                                 ______
                                 

    Responses of Deputy Secretary Heather Higginbottom to Questions 
                    Submitted by Senator Jeff Flake

    Question. When the State Department first began requesting OCO 
funding, it was to address operations in Iraq and Afghanistan. Then 
Pakistan was added. Then Syria was added. This year's request includes 
OCO funds to support efforts in all of these countries, plus Jordan and 
Ukraine.

  <diamond> How does the Department determine what it will designate as 
        being in support of ``Overseas Contingency Operations?''
  <diamond> Do you foresee a time when the State Department will stop 
        requesting OCO funding?

    Answer. OCO is the flexible and transparent mechanism the 
Department and USAID need to respond to extraordinary, uncertain events 
that require an immediate response. In cooperation with Congress, we 
have used OCO to address extraordinary emerging contingencies arising 
from ongoing conflicts, post-conflict situations where stabilization 
gains are fragile, and where U.S. engagement is critical to protecting 
U.S. national security. OCO funding allows State and USAID to deal with 
extraordinary activities that are critical to our national security 
objectives without undermining efforts to achieve our enduring 
diplomatic, foreign policy, and development goals. We greatly 
appreciate the flexibility that Congress has provided via OCO funding, 
allowing us to respond more effectively to a rapidly changing world.
    As in past years, FY 2016 budget proposes to normalize some OCO-
funded activities into the ``base,'' while identifying a limited number 
of new OCO priorities to meet emerging contingencies.
    The administration is developing a strategy to transition elements 
of the OCO budget to the base budget. This plan must balance ongoing 
contingencies with the likely constraints on the base budgets of the 
Department of Defense, the Intelligence Community, and the Department 
of State/Other International Programs. Any transition of enduring OCO 
to base can only work if sequester level spending caps are lifted so as 
not to jeopardize ongoing, enduring efforts.

    Question. This year's budget request includes $150 million in OCO 
funding for a new program called the ``Peace Operations Response 
Mechanism,'' which according to budget justification documentation 
``would allow the U.S. to support potential emergent peace operations 
without disrupting continued American assistance for existing 
peacekeeping missions in Africa and other areas of conflict.'' 
Authority was also requested to transfer these funds to the 
Peacekeeping Operations or Contributions to International Peacekeeping 
Activities to provide for additional flexibility.

  <diamond> Peace Operations Response Mechanism OCO: How and why was 
        the determination made to request this new account with OCO 
        funds, rather than including it in the so-called enduring 
        budget?

    Answer. In recent years, the Department has faced the recurring 
challenge of addressing unanticipated costs that emerge outside of the 
regular budget cycle to support peacekeeping operations, including U.N. 
peacekeeping operations and activities. The Peace Operations Response 
Mechanism was requested in OCO in an effort to provide a specific 
funding source to meet these new or expanded global peacekeeping 
activities, without disrupting other important, ongoing missions and 
programs. Activities funded by the mechanism will be initial responses 
or significant expansions, rather than recurring or ongoing costs. Any 
recurring costs for a particular peace operation would then be 
requested in the base budget. Such a contingency fund would be similar 
to a number of other OCO-funded programs.

    Question. In the Embassy Security, Construction and Maintenance 
account, $275 million in OCO funding is requested to pay for 
``construction costs for the Afghanistan transition and lease costs for 
properties in Iraq.''

  <diamond> Embassy Security, Construction, and Maintenance OCO 
        Secretary Kerry has specified that the use of OCO funding `is 
        to address short-term, emerging requirements in very limited 
        circumstances.'' Considering the United States will maintain a 
        diplomatic presence in both countries for the foreseeable 
        future, how does this request address a ``short-term, emerging 
        requirement?''

    Answer. As outlined in the FY 2016 budget request, OCO activities 
include operational and assistance activities that are extraordinary 
due to short-term, emerging requirements or due to security conditions 
that impose exceptional costs. The $134.6 million FY 2016 Embassy 
Security, Construction, and Maintenance (ESCM) OCO request includes 
$124 million for security upgrades to nonpermanent structures on the 
Kabul Embassy compound that will be used for swing space during 
construction of new housing and provide hardened office space for surge 
requirements, and $10.8 million for leasing two properties that 
comprise the Embassy compound in Baghdad. These projects reflect the 
national security imperative to sustain our diplomatic presence in Iraq 
and Afghanistan. The Kabul project's costs are extraordinary due to the 
current operating environment and security situation, and it is 
distinct from the type of facilities funded through the ESCM Capital 
Security Cost-Sharing program.

    Question. Embassy Security, Construction, and Maintenance Frontline 
States OCO: At what point will we bring State Department activities in 
Iraq and Afghanistan back inside the ``enduring'' budget?

    Answer. The OCO request enables greater fiscal discipline and 
transparency by sun-setting extraordinary costs over time, while at the 
same time providing ESCM enduring programs with predictable base 
funding and preventing those programs from being eroded to support 
extraordinary costs in select locations, including Afghanistan. While 
security conditions in Iraq and Afghanistan may continue to require 
OCO-funded facility enhancements and upgrades to safeguard U.S. 
Government personnel, the ESCM ``enduring'' budget does include funding 
for the ongoing maintenance of our facilities in Iraq and Afghanistan.
    The administration is developing a strategy to transition elements 
of the OCO budget to the base budget. This plan must balance ongoing 
contingencies with the likely constraints on the base budgets of the 
Department of Defense, the Intelligence Community, and the Department 
of State/Other International Programs. Any transition of enduring OCO 
to base can only work if sequester level spending caps are lifted so as 
not to jeopardize ongoing, enduring efforts.

    Question. The Department conducts programs like ``Art in 
Embassies,'' which spends taxpayer dollars on extravagant art for 
embassies abroad.

  <diamond> Can you tell us more about this program? Roughly how much 
        annually does the State Department spend to commission or 
        procure art at overseas installations?
  <diamond> What State Department office is in charge of the program? 
        In what public account are funds drawn for this program?

    Answer. The Department's Bureau of Overseas Buildings Operations 
manages the Art in Embassies (AIE) program. AIE was initiated by 
President John F. Kennedy and contributes to U.S. cultural diplomacy 
through loaned art exhibitions for Chief of Mission Residences (CMRs), 
acquisitions for new embassy and consulate construction projects, and 
cultural exchanges with artists, universities, and cooperatives. The 
Art in Embassies program is primarily funded from the ``Operations'' 
budget of the Embassy Security, Construction, and Maintenance (ESCM) 
account. For FY16, the requested program budget for AIE is $2.75 
million. For new diplomatic facilities, funds for art are allocated at 
0.5 percent of the value of the construction cost. This funding covers 
all costs for art purchases for the public spaces. This percentage is 
in line with other Federal Government art budgets. In FY16, it is 
expected that $6.1 million will be spent as part of four New Embassy 
Compound projects.

    Question. The FY 2016 budget request asks for $99 million to 
construct a ``Foreign Affairs Security Training Center.''

  <diamond> How much money over the years has been spent on identifying 
        the appropriate site for a Foreign Affairs Security Training 
        Center (FASTC)? How much has been spent on construction of such 
        a center?
  <diamond> What efforts have individual Congressmen or Senators taken 
        to influence the selection process of a FASTC site? How have 
        these efforts impacted the goal of creating a FASTC?

    Answer. Since project inception in 2009, the U.S. Department of 
State (the Department) has spent approximately $18,162,685 on site 
selection activities for the Foreign Affairs Security Training Center 
(FASTC). Site selection activities include such things as requirements 
development, suitability studies, feasibility studies, master plan 
development, acquisition planning and environmental impact analysis. To 
date, the Department has committed approximately $39,478,810 to 
preconstruction activities associated with FASTC. Preconstruction 
includes all the previously listed site selection activities, plus 
design and site acquisition activities. Actual construction is 
scheduled to begin in late July 2015.
    Since 2009, the Department and the General Services Administration 
(GSA) have evaluated over 70 different sites before selecting Fort 
Pickett near Blackstone, VA, as the preferred location for FASTC. The 
Department has been vigorously engaged with Congress throughout the 
process and appreciates the continued support of the critical mission 
and need for a consolidated hard-skills security training center. In 
April 2014, the administration reaffirmed the selection of Fort Pickett 
as the preferred site for FASTC, based on factors, including but not 
limited to, availability of land, compatible use, and location in the 
mid-Atlantic region.
    After years of searching for a site, we are excitedly moving 
forward with Fort Pickett, as it meets all the criteria and will enable 
us to keep our people safer around the globe. The future of the site 
has been litigated and studied thoroughly and logical, well-thought out 
decisions have been made.
                                 ______
                                 

    Responses of Deputy Secretary Heather Higginbottom to Questions 
                   Submitted by Senator David Purdue

    Question. More than 45 diplomatic functions at the State Department 
are currently headed by individuals titled Special Envoy, Ambassador at 
Large, Representative, Coordinator, or similar. While some ``special'' 
positions at State are mandated by Congress, most are created by the 
administration to highlight particular priorities or challenges. The 
Obama administration has reportedly made the most extensive use of such 
positions than previous administrations.

  <diamond> Has the State Department conducted an internal assessment 
        on duplication of effort and coordination issues with 
        ``special'' positions? What is being done to address this 
        issue?

    Answer. We regularly evaluate the number of Special Envoys. The ad 
hoc nature that makes these positions useful for accomplishing specific 
and limited foreign policy goals means that the number changes often. 
The numbers have and will continue to vary widely, particularly in what 
is generally acknowledged as the most complex foreign policy 
environment in recent memory.
    Special Envoys do not duplicate the work of our long-standing 
organizational system; they complement existing staffing and 
leadership, offering unique expertise and perspective to mission 
critical programs and initiatives. An example would include the Ebola 
Response Coordinator, a position created to respond to a sudden crisis, 
but whose work now has been reintegrated into standing State Department 
offices. During the time the position existed, the Ebola Response 
Coordinator helped greatly to harmonize our efforts to aid countries 
stricken by the Ebola virus.
    Special Envoys fill temporary positions created to address critical 
foreign policy needs. Some urgent efforts require high-level 
representatives to coordinate immediate and cohesive responses across 
the government and with foreign governments, like the Special 
Presidential Envoy for the Global Coalition Against ISIL. Other 
positions are created for occasional events and filled by people who 
generally work full-time in other positions. For example, our Special 
Representative to the Organization of Eastern Caribbean States is a 
role filled by our Ambassador to Barbados when meetings of the 
Organization of Eastern Caribbean States occur.

    Question. On IT System Independence.--I was concerned to hear that, 
particularly given vulnerabilities of the State Department's network, 
there is no firewall between the State Department and the IG's 
networks.
    There are thousands of administrators that work for State, who have 
the ability to modify or delete information, and could even pose as IG 
employees.
    What's more troubling, if there was a breach of the State system, 
the IG would not know it happened. Mr. Linick testified that State's 
network has been attacked, and that it affected the OIG.
    IG Linick told us yesterday that it took over 6 months just to get 
an agreement from Diplomatic Security that going forward they will 
notify the OIG when they go on their IT network.
    The IG has expressed the need for an independent IT system in order 
to conduct secure oversight.

  <diamond> Have these issues been brought to your attention? What are 
        you doing to implement the changes requested? Could more be 
        done for a long-term solution?

    Answer. The Department is fully compliant with the Inspector 
General Act and supports the independence of the Office of Inspector 
General (OIG) and the necessity to ensure the integrity and 
confidentiality of the data the OIG collects and stores. Working 
together with the OIG, we can strengthen controls to ensure that OIG 
systems and data may be accessed only with OIG concurrence, without the 
need and extraordinary expense of establishing and operating a 
separate, independent network. The Department is currently implementing 
additional access controls and encryption that will significantly 
reduce, if not eliminate, the threat of exposure of OIG data by inside 
actors.
    Establishing a separate network will not mitigate all of the 
threats that the U.S. Government now contends with and any separate OIG 
network will be subject to the same attacks as any other U.S. 
Government network.
    Additionally, the professional expertise of the Chief Information 
Officer operation and the capabilities of Diplomatic Security, 
especially those exhibited at the Department's facility in Beltsville, 
MD, would be both challenging and costly to fully replicate by the OIG.
    Finally, the Department believes there is a more positive benefit 
of continued access by the OIG to the Department's networks. The 
current operational model depends on the OIG's ability to reach out to 
Department employees through their questionnaires and SharePoint site, 
for example. Separating this access will make it considerably more 
difficult and less secure for employees to access the OIG.

    Question. On the investigations issue, I am concerned that without 
the IG being informed of all allegations and investigations, there is 
an appearance of undue influence and of senior State Department 
officials investigating themselves, if you will.

  <diamond> Have these issues been brought to your attention? What are 
        you doing to implement the changes requested?

    Answer. The work of the Office of Inspector General (OIG) is of 
great importance to the Department in promoting economy and efficiency 
and preventing and detecting waste, fraud, abuse, and mismanagement of 
programs and operations. I have personally met with the Inspector 
General to discuss his concerns regarding allegations and 
investigations of senior State Department officials. I am fully 
committed to finding an appropriate resolution and will keep the 
committee informed of any decisions made.

    Question. Benghazi/Accountability Review Board Recommendation 
Follow-Through.--Another major issue we raised with IG Linick yesterday 
was the lack of sustained interest in Accountability Review Boards 
(ARBs), which investigate serious incidents, such as the 2012 attacks 
on diplomatic personnel in Benghazi, Libya.
    As Mr. Linick testified, a number of the Benghazi ARB 
recommendations mirrored previous ARB recommendations.
    He stated that of the 12 ARBs conducted from 1998 to present, 40 
percent of the 126 recommendations put forth were repeat 
recommendations.
    He recommended that the sustained interest and oversight of State 
Department leadership is needed.

  <diamond> What steps are being taken to ensure follow-through on 
        putting these recommendations into place?

    Answer. The OIG's Special Review of the Accountability Review Board 
Process from September 2013, specifically stated--``The OIG team 
conducted its own review of the 126 recommendations made before 
Benghazi during the 14-year span of the review. Common ARB report 
themes include the need to construct new embassies to meet current 
security standards; the need for more and better training not only for 
DS employees, but also for embassy staffs globally; the need for 
additional DS agents and for a significantly expanded Marine security 
guard program; and the need to improve interagency coordination and 
information-sharing. Of the 126 recommendations made in the 12 ARBs 
from 1998 to the present, 40 percent of them addressed elements of 
these core areas.''
    ARB recommendations may appear similar or repetitive as they all 
relate to the saving of lives, protection of property, or classified 
information. However, just as each incident is unique, so have been the 
recommendations.
    Similarities between ARB recommendations do not mean that the 
Department has not implemented them. It shows that even if the 
Department has addressed an issue, our enemies' tactics may evolve and 
threats may increase and arise in new locations.
    For example, in 1985, State had about 150 Regional Security 
Officers (RSOs) assigned to overseas posts. Our RSOs are highly skilled 
law enforcement professionals, trained to operate in overseas 
environments. By late 2012, there were approximately 800 RSOs serving 
overseas; this increase was due in part to recommendations of previous 
ARBs. The Benghazi ARB found that we needed to yet again increase 
diplomatic security coverage; in 2013, when Congress funded our 
increased security proposal, we hired another 75 RSOs.
    Each year the threat level continues to increase in many areas of 
the world, yet it is imperative that the Department and other U.S. 
Government agencies continue to carry out our U.S. foreign policy at 
over 275 posts worldwide. This reflects two truths: (1) we can reduce 
risk, but we can never eliminate it; and (2) our work to improve 
security is never done.
    The Department works to implement ARB recommendations by building 
them into Department policies, programs, procedures, and through annual 
budget requests. Many ARB recommendations are ``evergreen''--
recommendations that require long-term, sustained commitment to 
security, building standards, hiring additional staff, constructing new 
safe facilities, training, etc. The Department closely reviews all past 
ARB recommendations on an annual basis.
    Implementation of ARB recommendations receives the attention of the 
highest levels of the Department. The Foreign Affairs Manual States 
that the Deputy Secretary of State for Management and Resources will 
oversee the Department's progress on ARB implementation (12 FAM 036.3). 
The Under Secretary for Management, in coordination with the Under 
Secretary for Political Affairs, is responsible for implementation of 
ARB recommendations.

    Question. By your own assessment, State would need to build or 
augment 90 percent of the capabilities at the FLETC facility in Glynco, 
GA, to be able to meet the capabilities planned for the proposed FAST-C 
facility in Fort Pickett, VA. Can you please elaborate on how you 
reached this ``90 percent'' figure?

    Answer. In October 2013, the Department of State and the Department 
of Homeland Security developed a consensus document that outlined 
existing facilities and required new construction. The consensus 
document took the 47 FASTC requirements and determined that 35 of the 
47 requirements would be done via new construction, 7 could be achieved 
with supplementation of existing facilities, and only 5 requirements 
could be met using existing Federal Law Enforcement Training Center 
facilities.

    Question. The FACT training that was originally anticipated to be 
carried out at the proposed FAST-C facility in Fort Pickett, VA, will 
now be carried out at FLETC. Considering that the FACT training was 
planned to make up about 6,500 of the 9,200 anticipated students that 
would attend FAST-C annually----

  <diamond> How does this change the plans for capacity and scope of 
        the anticipated training at the proposed FAST-C facility and 
        the ability of FLETC to facilitate the training?
  <diamond> What impact does this have on the assessed need to build or 
        augment 90 percent of the capabilities at FLETC?
  <diamond> What are your long-term (5-10 year) forecasts for training 
        numbers--for requalifications and for first-time training?

    Answer. In discussions with the Executive branch, and the agreed-
upon Foreign Affairs Counter Threat (FACT) training ramp-up plan, there 
was never an understanding by any party that FACT training would be 
only done at Georgia. The certification of the Federal Law Enforcement 
Training Center (FLETC) to carry out FACT does not significantly change 
the number of students that will be trained at the Foreign Affairs 
Security Training Center (FASTC) at Fort Pickett. The Department of 
State has always planned that the majority of the 6,500 FACT students 
will still be trained at Fort Pickett. The Department has no plans to 
send DOS personnel to FLETC for FACT training as long as sufficient 
capacity exists in existing contract facilities or newly constructed 
facilities at Fort Pickett to meet its needs. These students will 
either be serving in Washington, DC, or will be in Washington, DC, on 
consultations before heading out to their next assignments. It is not 
cost-effective to fly them to Georgia for a week-long class. However, 
organizations such as the Center for Disease Control, who are located 
in Georgia, may choose to train at FLETC, as it would be more cost-
effective for them. In addition, Department of Homeland Security may 
want to provide FACT training to its Customs and Border Patrol 
employees, or other law enforcement officers who would benefit from 
FACT training.
    The 90 percent figure was based on the purpose-built facilities 
needed to conduct all hard-skills training for FASTC as a whole, as 
part of the due-diligence process in 2013. The Department is not in a 
position to comment on any additional facilities FLETC may require to 
meet its self-determined FACT goal, which would depend on the number of 
FACT courses that FLETC plans to run.
    In line with its FACT ramp-up plan, approved by both the National 
Security Staff and the Overseas Security Policy Board, the Department 
plans to reach its target goal of approximately 6,500 students per year 
by the end of FY 2018. From that point, the Department anticipates 
similar numbers for each of the following years as a permanent part of 
the professional training required for personnel assigned under chief 
of mission authority abroad.
    While FACT training is the majority of the training that will take 
place at FASTC, other training will take place at Fort Pickett as well, 
such as Special Agent training, which helps prepare individuals for 
serving in today's dangerous overseas environment.

    Question. Assistant Secretary Greg Starr promised Department of 
Homeland Security a list of training requirements of FAST-C (rather 
than a capital master plan) to allow DHS to conduct an adequate cost 
estimate for a build out of FLETC, maximizing the efficiencies from 
current FLETC training capabilities and capacity.

  <diamond> What is the status of the fulfillment of this request? 
        Could you please copy my office on this correspondence? Could 
        you please provide me an update on the current Environmental 
        Impact Study being conducted for the proposed FAST-C location 
        at Fort Pickett, VA? In the hearing, you stated you hope to 
        break ground by ``later this spring.'' What is the difference 
        in the annually reoccurring costs of expected per diem using 
        current applicable rates for FASTC and FLETC and travel costs 
        between FLETC and FASTC? Is it guaranteed that 100 percent of 
        students would leave FASTC on weekends while training? If so, 
        please factor that into the response.

    Answer. As part of the due-diligence process, from February 2013 
through October 2013, the Department of State provided documentation to 
the Federal Law Enforcement Training Center (FLETC) regarding the 
Foreign Affairs Security Training Center (FASTC) requirements. This 
information included, but is not limited to, curricula for current 
hard-skills training classes, duration and length of courses, and 
facility requirements for the reduced-scope project at Fort Pickett. In 
April 2014, the administration reaffirmed that Fort Pickett was the 
best location for FASTC. In February 2015, the President submitted a 
$99.1-million request for FASTC as part of the FY 2016 budget. The 
future of the site has been litigated and studied thoroughly and 
logical, well-thought out decisions have been made in by the 
administration, working with all involved parties.
    With the April 2014 announcement of the decision to move forward at 
Fort Pickett, the Department of State has been taking the necessary 
steps to execute the project. The final Environmental Impact Statement 
will be released for comment on April 24, 2015 and can be found at 
``www.state.gov/recovery/fastc.''
    As a responsible steward of public funds, the Department worked 
with FLETC to determine if the Department's hard-skills diplomatic 
security training requirements could be met there. As part of our 
analysis, we factored in the ``hard costs,'' such as operating costs, 
transportation, and construction of the necessary facilities for our 
training requirements. Through our analysis, in October 2014, the 
Department found that we would need more than $80 million in additional 
air and transportation costs for the first 10 years alone using plane 
flights and buses to FLETC versus chartered bus transportation to Fort 
Pickett. The Department recognizes that FLETC has dormitories on site, 
but we also know that as a training partner with 90 other agencies, 
FLETC does not have the available occupancy for the majority of our 
students. A blended rate of onsite and offsite lodging, meals, and 
incidental expenses, results in a 10-year cost of nearly $139 million 
for FLETC. Using the Department's historical negotiated rates for 
lodging and applying them near Blackstone, VA, and the surrounding 
areas, along with meals and incidentals, the Department estimates the 
cost will be $167 million. This cost difference is easily offset by the 
10-year compensation costs to the U.S. Government for travel to FLETC 
estimated at $51 million compared to $28 million for travel to Fort 
Pickett. Keeping in mind, this figure does not include the loss of 
productivity for the additional travel time required for FLETC, which 
is difficult to quantify.
    It is not guaranteed that 100 percent of the students would leave 
Fort Pickett on the weekends. The Department estimates of the 9,200 
students per year, approximately 500 will have a private vehicle and 
will drive to and from the training facility. The training to be 
conducted at FASTC ranges from a few days to 6 months. It should also 
be noted that the Department would not be flying employees from 
overseas to train, but rather the majority train while they are here in 
Washington, DC, preparing for their next assignment or are back in 
Washington, DC, on consultations. For this and many other reasons, such 
as our ability to train with the U.S. Marines from Quantico, the 
proximity of the consolidated hard-skills training center to 
Washington, DC, is critical.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
